<html>
<title> - THE FEDERAL PROTECTIVE SERVICE: AN AGENCY IN NEED OF REBUILDING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    THE FEDERAL PROTECTIVE SERVICE: AN AGENCY IN NEED OF REBUILDING

=======================================================================

                               (110-142)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                     U.S. GOVERNMENT PRINTING OFFICE
43-115 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Goldstein, Mark, Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     5
Schenkel, Gary, Director, Federal Protective Service.............    23
Wright, David, President, Federal Protective Service Union.......    23

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    43
Carney, Hon. Christopher P., of Pennsylvania.....................    44
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    46
Oberstar, Hon. James L., of Minnesota............................    50

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Goldstein, Mark L................................................    52
Schenkel, Gary W.................................................    79
Wright, David L..................................................    89
[GRAPHIC] [TIFF OMITTED] T3115.000

1[GRAPHIC] [TIFF OMITTED] T3115.000

2[GRAPHIC] [TIFF OMITTED] T3115.000

3[GRAPHIC] [TIFF OMITTED] T3115.000

4[GRAPHIC] [TIFF OMITTED] T3115.000

5

    HEARING ON THE FEDERAL PROTECTIVE SERVICE: AN AGENCY IN NEED OF 
                               REBUILDING

                              ----------                              


                        Wednesday, June 18, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:10 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good afternoon. We welcome today's witnesses 
from the Government Accountability Office, the Federal 
Protective Service and the FPS Union. GAO has completed its 
much anticipated report on the condition of the Federal 
Protective Service, or FPS.
    At our February 8th, 2008 hearing on GAO's preliminary 
findings, the Subcommittee heard chilling testimony from the 
GAO that FPS had deteriorated so substantially that its 
difficulties ``may expose Federal facilities to a greater risk 
of crime or terrorist attack.'' The Subcommittee has not 
forgotten that Federal facilities where Federal employees work, 
in particular the Pentagon and the Alfred P. Murrah Oklahoma 
City Federal Building, have been the choice targets of major 
terrorist attacks in this Country--clearly because Federal 
facilities are symbols of the United States Government.
    The documented history of terrorist assaults on Federal 
assets and consistent threats since 9/11 have required 
continuing high levels of vigilance to protect both employees 
and visitors who use our Federal facilities. In the post-9/11 
and Oklahoma City world, Congress recognized the need for 
bolstering police protection in and around the White House and 
the Capitol Complex, and one surely would not want to 
underestimate the importance of increased protection for the 
Federal workforce as well.
    When the Department of Homeland Security was formed in 
2002, the FPS was transferred from GSA to the newly created 
Department and placed within the Immigration and Customs 
Enforcement unit, ICE, as it is known. The Committee expressed 
its strong support for the transfer but insisted that FPS 
officers and guards be used exclusively for and by the FPS. 
Starting in February 2005, the Chairman and I have sent a 
series of letters to the DHS, the Department of Homeland 
Security, and held hearings questioning the use of funds, the 
placement of FPS within ICE, and the major shift from a 
protection-based workforce to an inspection workforce. We have 
supported an increase in the number of FPS employees as well. 
These concerns have strong bipartisan support. Both Chairman 
Oberstar and Ranking Member Mica have expressed their own views 
about the gravity of the FPS situation.
    The final GAO report confirms in stark terms GAO's 
preliminary findings reported at our February 2008 hearing. The 
report says that the FPS has seen its budget decimated, morale 
and staff plummet, and attrition skyrocket. The final report 
confirms the bipartisan concern that the effectiveness of the 
FPS has been compromised since its placement in Immigration and 
Enforcement inside the Department of Homeland Security. A 
February 18th, 2008 editorial in the Federal Times calls on 
Congress to consider removing FPS from ICE.
    Our Subcommittee has carefully tracked the downward 
trajectory of the agency until it became clear that deeper 
investigation than hearings were necessary, and we requested 
the GAO report before us today. Among the many signs that an 
investigation was in order was an ICE-endorsed proposal last 
year to substantially reduce FPS officers across the Nation, 
including providing no FPS officers in almost 50 cities. 
Memoranda of Understanding, or MOUs, we were told, would be 
developed with cities to make up for the absence of Federal 
police officers. The GAO, in its preliminary review, found that 
not one MOU had been signed and found numerous instances in 
which the local jurisdictions had no knowledge at all of these 
supposed memoranda.
    During our April 2007 hearing, when this proposal was first 
discussed, I voiced my concern that local police have little 
reason to volunteer to assume unfunded mandates to protect 
Federal sites, particularly at the same time that local police 
are facing cuts in their own budgets and in Federal programs. 
In GAO's final report we learn that the ICE management has 
abandoned the idea of MOUs and will now rely on ``informal 
relationships'' between FPS and local law enforcement entities. 
It is fair to ask if this is any way to protect Federal 
employees across the Nation in post-9/11 America. Is this any 
way to ensure the protection and security of an inventory that 
has a replacement value of $41 billion?
    The GAO report leaves no doubt that the FPS, the Nation's 
first Federal police force, established in 1790, has been 
rocked by inadequate funding and staffing, leading to the 
inability to complete its core mission of facility protection 
of building security assessments and to complete building 
security assessments in a timely and professional manner, and 
to monitor and oversee the contract guards. We learn from the 
report, ominously, that proactive patrols, the core work of a 
police force, have been eliminated at many GSA facilities. This 
decision was made in spite of the fact that the GAO reports 
that ``multiple governmental entities acknowledge the 
importance of proactive patrol in detecting and preventing 
criminal incidents and terrorism-related activities.''
    It appears that the ICE/FPS answer to funding problems and 
management issues has been to change the nature of the 
workforce from a protection-based police force to an 
inspection-based workforce. In addition to this baffling 
decision, ICE and FPS decided to add contracting duties to the 
already overstretched inspector position.
    As I reviewed the final report, I was struck by the 
similarities between the demise of the Federal Emergency 
Management Administration, or FEMA, and the ongoing destruction 
of this once highly regarded police force. Upon transfer, each 
of these entities suffered from a blurring of their mission's 
oversight by DHS entities with almost no programmatic or 
organizational similarities, leadership by management without 
the necessary expertise, and, in the case of the FPS, paperwork 
used in place of police work. The irony is too striking to be 
missed: both FEMA and FPS were moved to DHS to enhance their 
mission capacity for protection, only to suffer devastating 
decline inside a Homeland Security agency.
    The Subcommittee has witnessed the slow disintegration of a 
workforce that once had a reputation as a highly effective and 
motivated police force, providing an invaluable and necessary 
service to both Federal employees and taxpayers. According to 
the report, however, the FPS workforce has been reduced by 
approximately 20 percent during a time when the number of 
Federal buildings has increased from 8,800 to 9,000. Yet, the 
GAO reports, while the Service was hemorrhaging officers, ICE 
and FPS was actually hastening the reduction by offering 
``early retirement, detailed assignments to other ICE and DHS 
components, and not filling vacant positions.''
    The Subcommittee commissioned this report to guide future 
action. Our major concern now must be moving to shore up the 
protection for hundreds of thousands of Federal employees and 
property. DHS and ICE appear to believe that, without statutory 
authorization, they can unilaterally change the core mission of 
the FPS so that it no longer is a police force by any accepted 
definition of the term. However, no one has told Federal 
employees and visitors not to expect routine patrols and 
protection from the FPS. If the FPS is no longer a primarily 
protective police force, someone should inform Federal agency 
heads and Federal employees, and certainly visitors throughout 
the United States who make 10 million law enforcement calls 
each year to the FPS, particularly considering that the 15,000 
security guards on duty must remain stationary and do not 
patrol, while the FPS, too, no longer patrols, for the most 
part. FPS must tell us how it will be possible to continue, for 
example, to make 4,000 arrests annually on charges of 
committing crimes on Federal property.
    These are not rhetorical questions or matters. We have been 
prepared to work with FPS on corrective action since our 
hearings first identified serious problems several years ago. 
We have shown every desire to be partners, not adversaries. But 
despite our hearings and the oversight of the Homeland Security 
Committee, on which I also sit, Congress has been ignored, even 
defied.
    This Subcommittee, and now our Full Committee, are on 
notice. We ignore this report at our peril and may put hundreds 
of thousands of Federal employees at risk if we do. The report 
mandates immediate action and response unless FPS can show us 
otherwise. We will listen carefully to the agency's response. 
We welcome all the witnesses. Each of you is essential to this 
hearing. This is a very important, one of the most important 
hearings of this entire year for this Subcommittee. We 
appreciate the time each of you has taken and the effort you 
have made in preparing testimony and coming this afternoon.
    I am pleased now to ask the Ranking Member, Mr. Graves, if 
he has any opening remarks.
    Mr. Graves. Thank you, Madam Chair, for having this hearing 
today.
    I want to thank all of our witnesses for being here to 
discuss this very important issue on the Federal Protection 
Service.
    I also particularly want to thank David Wright, from my 
home State of Missouri, for being here. I appreciate your 
efforts to improve the FPS and everything you have done to try 
to make things better.
    We know Federal buildings are proven targets for terrorism. 
The devastating bombings in Oklahoma City and the terrorist 
attacks of 9/11 show that Federal buildings are prime targets. 
Despite the clear danger to Federal facilities, the GAO 
concluded security at Federal buildings has decreased and the 
risk of crime and terrorist attacks at Federal buildings has 
increased in recent years. There are many factors that have 
contributed to the increased risk: building security 
assessments are unreliable, patrolling is down, security 
equipment is broken, there are no reliable systems to assess 
risk or performance. Meanwhile, the over one million people 
that work and visit Federal buildings each year are poorly 
protected.
    The number of security countermeasures that are not working 
is unacceptable, everything from security cameras, x-ray 
machines, FPS radios reportedly broken and, in some cases, have 
been for months and even years. For example, in one of the most 
sensitive buildings in the Country, only 11 of 150 security 
cameras are operating.
    On top of this, FPS has eliminated patrolling of many 
facilities. FPS's own policy handbook identifies patrolling as 
necessary to prevent and deter crime and terrorist attacks. 
Despite this, FPS has reduced patrols and the contract officers 
are restricted to their fixed posts and can't make arrests.
    There are real dangers to the lack of patrols. In one 
region, there were 72 homicides within three blocks of a major 
Federal office building. At other locations, FPS personnel 
complained that some Federal day care centers are left 
vulnerable to loitering and drug users.
    DHS proposes relying more on local law enforcement to fill 
gaps and policing Federal facilities; however, DHS is unclear 
of what authority local police may have in responding to 
incidents at Federal facilities, and there is no formal 
agreement with them. For example, in 2006, the Kansas City 
Police Department chased two armed robbery suspects into a 
vacant Federal office complex in my home State. Given the size 
and complexity of the facility, local police called FPS for 
help. The FPS officers who responded were directed by their 
superiors to unlock the gates and stand down. Local police were 
left with no backup to apprehend armed robbers in an unfamiliar 
Federal complex.
    If FPS won't back up local police at Federal facilities, 
why should we expect local law enforcement to help police 
Federal buildings?
    Another glaring problem is the unreliability of building 
security assessments. According to GAO and an outside news 
investigation, the FPS conducted building security assessments 
without ever inspecting the buildings, recycled old security 
assessments, and copied assessments from one building report to 
another. In fact, GSA and other Federal agencies have begun to 
hire outside security firms or other Federal agencies, like the 
Army Corps of Engineers, to do their own assessments. In the 
end, agencies wind up paying twice for the same service, a 
prime example of Government waste.
    In addition, while FPS was struggling to perform its basic 
mission of protecting Federal buildings, FPS reassigned dozens 
of key personnel to other functions within DHS. A news 
investigation also revealed FPS was spending time and resources 
on security assessments of several high-ranking Government 
officials' private homes.
    I am very concerned about the safety and security of the 
people who work and visit our Federal buildings. Yet, given the 
mission, the poor management, the lack of real data to measure 
performance or to assess risk, I am concerned that throwing 
more money and personnel at FPS is not going to solve the 
agency's problems.
    Again, Madam Chair, I would like to thank you for holding 
this hearing.
    I look forward to our witnesses' testimony. Thank you all 
for being here. I am hopeful that this hearing is going to help 
focus some of what we need to do, I guess it is, to try and 
improve FPS and also trying to improve on its primary mission 
of protecting the people who visit the Federal buildings across 
this Country, and I want to thank you.
    Ms. Norton. Thank you very much, Mr. Graves.
    Mr. Shuster, we are glad to have you, if you have any 
remarks.
    Mr. Shuster. No, thank you.
    Ms. Norton. All right.
    We would like to ask Mr. Goldstein, who did the report from 
the GAO, if he might begin now.

TESTIMONY OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL INFRASTRUCTURE 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Madam Chair and Members of the 
Subcommittee. We are pleased to be here today to discuss the 
efforts of the Federal Protective Service in protecting Federal 
employees, the public, and GSA facilities.
    As you know, in 2003, FPS transferred from the General 
Services Administration to the Department of Homeland Security 
and is responsible for providing physical security and law 
enforcement services to about 9,000 GSA facilities. Within DHS, 
FPS is part of the Immigration and Customs Enforcement 
component, the largest investigative arm of DHS.
    This testimony provides information and analysis on FPS's 
operational challenges and actions it has taken to address 
them, funding challenges FPS faces and actions it has taken to 
address them, and how FPS measures the effectiveness of its 
efforts to protect GSA facilities. This testimony is based on a 
report we have issued today called Homeland Security: Federal 
Protective Services Faces Several Challenges That Hamper Its 
Ability to Protect Federal Facilities.
    My full testimony is summarized by the following:
    Number one, FPS continues to face several operational 
challenges that have hampered its ability to accomplish its 
mission to protect GSA facilities, and the actions it has taken 
may not fully resolve these challenges. Since the transfer, 
while FPS has maintained 15,000 contract guards, its staff has 
decreased by about 20 percent, from almost 1,400 employees at 
the end of fiscal year 2004 to about 1,100 employees at the end 
of fiscal year 2007.
    This decrease in staff has contributed to diminished 
security and increased the risk of crime or terrorist attacks 
at many GSA facilities. For example, FPS has decreased or 
eliminated law enforcement services such as proactive patrol in 
each of its 11 regions. In addition, FPS officials at several 
regions we visited said that its proactive patrol has, in the 
past, allowed its officers and inspectors to identify and 
apprehend individuals that were surveilling GSA facilities. In 
contrast, when FPS is not able to patrol Federal buildings, 
there is increased potential for illegal entry and other 
criminal activity at Federal buildings.
    Moreover, FPS has not resolved longstanding challenges such 
as improving the oversight of its contract guard program. In 
addition, FPS faces difficulties in ensuring the quality and 
timeliness of its building security assessments, which are a 
core component of FPS's physical security mission. For example, 
one regional supervisor stated that while reviewing a BSA for 
an address he personally visited, he realized that the 
inspector completing the BSA had falsified the information 
because the inspector referred to a large building, when the 
actual site was a vacant plot of land owned by GSA.
    FPS has also experienced problems ensuring that security 
countermeasures such as security cameras and magnetometers are 
operational. To address some of these operational challenges, 
FPS is currently changing to an inspector-based workforce which 
seeks to eliminate the police officer position and rely 
primarily on FPS inspectors for both law enforcement and 
physical security activities. FPS believes that this change 
will ensure that its staff has the right mix of technical 
skills and training needed to accomplish its mission.
    FPS is also hiring an additional 150 inspectors and 
developing a new system for BSAs. However, these actions may 
not fully address or resolve the operational challenges that 
the agency faces, in part because the approach does not 
emphasize law enforcement responsibilities.
    Second, until recently, the security fees FPS charged to 
tenant agencies have not been sufficient to cover costs and the 
actions it has taken to address the shortfalls have had adverse 
implications. Since transferring to DHS, DHS and FPS have 
addressed these projected shortfalls in a variety of ways. For 
example, DHS transferred emergency supplemental funding to FPS 
and FPS has restricted hiring and travel, limited training and 
overtime, and suspended employee performance awards.
    According to FPS officials, these measures have had a 
negative effect on staff morale and are partially responsible 
for FPS's overall attrition rate increasing from about 2 
percent in fiscal year 2004 to about 14 percent in fiscal year 
2007. FPS also increased the basic security fee charged to 
tenant agencies from 35 cents per square foot in fiscal year 
2005 to 62 cents per square foot in fiscal year 2008. Because 
of these actions, fiscal year 2007 was the first year that FPS 
collections were sufficient to cover its costs. FPS also 
projects that collections will cover their costs in fiscal year 
2008.
    However, its primary means of funding its operations is the 
basic security fee, which is the same for Federal agencies 
regardless of the perceived threat to any particular building 
or agency. Therefore, the fee does not account for the risk 
faced by particular buildings, and, depending on that risk, it 
does not account for the level of service provided to tenant 
agencies or the cost of providing those services. For example, 
level I facilities may face less risk because they are 
typically small storefront operations with a low level of 
public contact.
    However, these facilities are charged the same basic 
security fee of 62 cents per square foot as a level IV facility 
that has a high volume of public contact, may contain high-risk 
law enforcement intelligence agencies and highly sensitive 
government records. The report recommends incorporating a 
security fee that takes into account the complexity or level of 
effort of the service being performed for the higher level 
security facilities.
    Finally, FPS is limited in its ability to assess the 
effectiveness of its efforts to protect GSA facilities. To 
determine how well it is accomplishing its mission to protect 
GSA facilities, FPS has identified some output measures such as 
determining whether security countermeasures, such as bollards 
and cameras, have been deployed and are fully operational, the 
amount of time it takes to respond to an incident, and the 
percentage of BSAs it has completed. Output measures assess 
activities, not the results of those activities.
    However, FPS has not developed outcome measures to evaluate 
the results and the net effect of its efforts to protect GSA 
facilities. Outcome measures are important because they can 
provide FPS with broader information and program results, such 
as the extent to which its decisions to move to an inspector-
based workforce will enhance the security at GSA facilities.
    In addition, FPS does not have a reliable data management 
system that would allow to accurately track these measures or 
important measures such as the number of crimes and other 
incidents occurring at GSA facilities. Without such a system, 
it is difficult for FPS to evaluate and improve the 
effectiveness of its efforts to protect Federal employees and 
facilities, to allocate its limited resources, or to make 
informed risk management decisions. According to FPS officials, 
the agency is in the process of developing such a system and in 
the future that will allow it to improve its data collection 
and analysis of its performance.
    In our report that we issued to this Subcommittee and other 
Congressional Committees, we recommended, among other things, 
that the Secretary of DHS direct the Director of FPS to develop 
and implement a strategic approach to better manage its 
staffing resources, to evaluate current and alternative funding 
mechanisms, and to develop appropriate measures to assess 
performance. DHS has agreed with these recommendations.
    This concludes our testimony. We are pleased to answer any 
questions that you may have. Thank you.
    Ms. Norton. Thank you very much, Mr. Goldstein. We have 
tried to be a problem solver throughout this process. When we 
saw ICE having a problem with contract guards. We didn't just 
have a hearing in which we exposed, for example, the fact that 
one of the contractors turned out to be a felon, we put in a 
bill, but we worked with ICE and we had a very good 
relationship with ICE in that working relationship, and we were 
very pleased that, working with them over a period of just a 
few weeks, ICE revised entirely its contracting, back pay--I 
shouldn't say back pay because people were getting back pay, 
but contractors weren't always getting their amounts.
    So we have seen what can be done if the agency works with 
the Subcommittee and we are going to try to approach this quite 
devastating report in that spirit and try to get at what is the 
source of the problem.
    There seems to be a management and resource problem, Mr. 
Goldstein. Listening to your testimony, I listened attentively 
to the fee structure and the placement of this force, this 
police force inside a DHS entity, in this case ICE, as perhaps 
a fatal placement here. It appears that what was truly a cosmic 
change for FPS is that they have had to get appropriated funds 
for the basic fee portion of the FPS budget that came out of 
the Building Fund, I believe, when FPS was a part of GSA.
    Do you believe, looking at the various component parts of 
this problem, that placing FPS in a more appropriate place in 
DHS would help solve the problems of mission and funding? Is 
FPS in the right place? Why in the world is it in ICE; what was 
the thinking? And is it possible for FPS to support itself with 
this kind of a fee structure?
    Mr. Goldstein. I will answer in several ways, Madam Chair. 
I think, first of all, when we did our interviews in seven of 
the regions of FPS and we talked to about 167 different 
individuals that were inspectors or officers or regional 
administrators out in the field, virtually every single 
individual that we asked the question that you just asked, 
which is where FPS should be placed, is FPS placed in the right 
location within DHS, almost every single individual said, no, 
they did not believe it should be part of ICE. They gave a 
variety of different responses of whether it ought to be more 
broadly in the physical security section or somewhere else 
within DHS.
    One of the things that we are doing for this Committee now, 
in the second part of our work on FPS, is we are going to look 
systematically at exactly why it was placed there and whether 
it should be placed there. But as I say, almost no one believed 
that its placement in ICE was effective, based on the 
interviews that we did.
    Ms. Norton. If you think mechanically about where to place 
something, whether it is Border Patrol there, so here are some 
cops, throw them in with the other cops. But here you had a 
very different kind of police force, different kind of fee 
structure, not dependent upon appropriated funds, and they got 
stuck and didn't seem to know what to do.
    Mr. Goldstein. Also, ma'am, a number of not only the things 
that they do, but the way they are treated in terms of training 
and recruitment and all those kinds of things are very 
different from many of the ICE officers, and that too we will 
be looking at. There seems to be a bit of a second class 
system, if you will, between ICE officers and FPS officers, as 
reported to us by various FPS people in the field.
    Ms. Norton. Can they go from one to the other?
    Mr. Goldstein. They can necessarily go from one to the 
other, and many, many people we talked to, both police officers 
and inspectors, one of their principle concerns that we will be 
looking into further is that they felt that they were not being 
treated commensurate with other ICE officers.
    Ms. Norton. In terms of pay or benefits or----
    Mr. Goldstein. In terms of pay, in terms of training and 
opportunity and those kinds of things, that is correct. That 
they are under a different system and that was partly why their 
morale is bad and partly why they weren't fully integrated into 
ICE. As I say, we will be looking into that in the near future 
for this Committee.
    Ms. Norton. Well, it is truly lethal to put police forces 
together and then have invidious distinctions among them. I 
wonder, have there been problems with people wanting to get out 
of FPS and join the border police or other parts of the Federal 
police?
    Mr. Goldstein. Yes, ma'am. Because of the way that FPS has 
been operating in the last couple of years, with its reduced 
staff and budget and morale being as bad as it has been, a 
number of officers have thought that they might go elsewhere 
within DHS, and we have many instances of individuals being 
told that they would not be able to transfer their law 
enforcement responsibilities to another part of DHS.
    Ms. Norton. Would the infrastructure and protection section 
of DHS or, for that matter, perhaps operating independently, as 
it did virtually at GSA--I mean, it was part of GSA, but there 
never were these kinds of--of course, it was part of this 
Committee--we never had any of these problems within GSA. Would 
it be better in infrastructure and protection or would it be 
better as a standalone entity in DHS, for example?
    Mr. Goldstein. Many of the officers raised both of those 
issues, that it might be best in IP or it might be better as a 
standalone entity, and that is part of what we will look at to 
try and ascertain what was the reasoning behind why it is in 
ICE and what would be the best location for it. Some have 
obviously also indicated that it might be better at GSA.
    Ms. Norton. You spoke about retention pay and its effect on 
keeping officers on, officers' morale. What is retention pay 
and would you explain how that works here?
    Mr. Goldstein. I was referring generally to pay levels and 
other kinds of human capital effects that they receive in terms 
of pensions and other things, and they are very different, I am 
told, between what FPS gets and what ICE and other law 
enforcement agencies get, and they are treated differently; and 
this is partly what we will be looking at in the second phase, 
here, of this work.
    Ms. Norton. Congress is trying to deal with these problems 
within a police force that we now know ought to be one, 
certainly, it is my view. Out of the 19th century you have, for 
example--I don't suggest this to be the case for Border Patrol 
and FPS, but a lot of our thinking really has not jumped to the 
21st century, with just the Library of Congress police and the 
Supreme Court police and the Capitol police. You know, if there 
was a threat on the Capitol Complex, having those divisions is 
a threat to the people in the Capitol Complex. So now I guess 
we are close to getting the Congressional police and the 
Capitol police together, and we recognize that it raises all 
kinds of issues. So your further investigation here is very 
welcome.
    You mentioned, as a basic weakness, that the fee charge is 
regardless of risk.
    Mr. Goldstein. That is correct.
    Mr. Norton. Is this how the fee structure was set up prior 
to Oklahoma City? How is risk determined? How is the fee charge 
done? Everybody in the whole, every kind of facility pays the 
same fee?
    Mr. Goldstein. They do, they pay the same basic security 
fee. They can pay additional fees in terms of building specific 
fees or for security work authorizations that will provide 
added features to the security of a building based on the 
recommendations of a building security committee, but everyone 
pays the same basic security fee regardless of whether they are 
a level I building or a level IV building, and that does not 
take into account----
    Ms. Norton. The same fee for a level IV building as for a 
level I building?
    Mr. Goldstein. Yes, ma'am, whether you are a storefront 
or----
    Ms. Norton. Even though you may need more officers and 
security guards for a level IV building? Or does the fee take 
account of that?
    Mr. Goldstein. That fee does not take account for it, it is 
a basic charge.
    Ms. Norton. Regardless of the size of building?
    Mr. Goldstein. That is correct.
    Ms. Norton. Who invented that?
    Mr. Goldstein. Sixty-two cents per square foot whether you 
are in a level I building or a level IV building.
    Ms. Norton. Is that how it has always been? Of course, that 
says a lot about pre-and post-9/11 right there.
    Mr. Goldstein. One of the recommendations we made relates 
to cost accounting, where we are recommending that FPS try to 
get a better handle on what it costs to provide its security to 
buildings across the spectrum so that it could create a 
defensible system of security fees based on risk and the level 
of buildings, as opposed to a blanket fee that has no equity in 
it.
    Ms. Norton. For example, does it make any sense that all 
courthouses are deemed level IV, even if they are in a Federal 
building in a county that is isolated somewhere or if it is New 
York?
    Mr. Goldstein. They are paying the same.
    Ms. Norton. Does that make any sense, I am saying?
    Mr. Goldstein. No, ma'am, we don't believe it does, which 
gets to our recommendation.
    Ms. Norton. I have a number of other questions. I am going 
to go to the Ranking Member.
    Mr. Graves. Thank you, Madam Chair.
    Mr. Goldstein, given all the problems you found in your 
investigation with the Federal buildings and FPS, do you think 
that the occupants in them and the visitors to them are safe?
    Mr. Goldstein. That is a hard question to answer, sir. In 
our conversations with 167 officers out in the field, we have 
found them increasingly concerned over time that they don't 
believe that they can provide the same level of security as 
they have been able to in the past.
    And as my testimony indicated, with problems with 
countermeasures, with problems of not being able to provide 
proactive patrols in most areas, and with problems with not 
being able to rely on local jurisdictions to fill the gap if 
FPS officers aren't available or if contract guards can't do 
anything other than keep to their posts, that is very much 
cause for concern in a period of post-9/11 activity. So we 
would have to say yes, we are concerned that security of 
Federal property and the people within them has deteriorated 
and is not what it once was or could be.
    Mr. Graves. Given what you just said about lack of patrols 
and obviously you testified about the staffing issues--and I 
think everybody today is probably going to talk about staffing 
issues and the problems there--do you think it is a wise 
decision for Homeland Security to move or to see FPS personnel 
doing other assignments within DHS or tasking FPS personnel and 
resources to do private homes? Do you think that makes sense, 
given the fact that we have a staffing issue and moving these 
resources and these personnel to other areas and doing other 
things like private homes, doesn't that contribute, then, to 
the problem of being able to provide adequate security?
    Mr. Goldstein. Sure. Any time that the officers and 
inspectors and the officials are taken off of their principal 
duties and are asked to do something different, that is 
creating a further burden and drain on the resources for those 
remaining. We indicate several places in our report that when 
special events occur or when there are high level trials at 
Federal courthouses--for instance, we have one instance in the 
report where there was a high level, very high visibility trial 
a couple years ago, and 75 percent of that region's FPS 
resources were sent to provide perimeter security to that 
courthouse, leaving very few officers remaining to protect the 
rest of the region. So these kinds of activities do very much 
highlight the burdens being placed on the agency overall and 
their ability to protect Federal property.
    Ms. Norton. As far as the Federal Government is concerned, 
there are no distinctions among regions as far as the mission 
to protect according to risk, but clearly in this National 
Capital Region we are obligated to have special concern. I wish 
you would tell us your view of whether the National Capital 
Region is sufficiently covered by routine patrols in the kinds 
of facilities we have in this region in particular, almost all 
of whom would be, of course, level IV facilities.
    Mr. Goldstein. I can tell you, ma'am, that every single 
region of FPS, including the National Capital Region, has far 
fewer officers than they did even a couple of years ago, and 
their ability to protect and to patrol and to react----
    Ms. Norton. Are patrols done in buildings within--let us 
take this region since you have the predominant Federal 
presence here. We will take this to be an indicator of what 
might be happening in other regions. Are there regular patrols? 
Are FPS officers in this region, bearing in mind that the far 
larger number of security guards cannot, as far as I 
understand, patrol?
    Mr. Goldstein. There are some patrols in this region. There 
are not nearly as many as there used to be. And there are also 
many facilities in the National Capital Region, like elsewhere, 
that do not receive any proactive patrol at all, and many 
Federal facilities that have no nighttime or weekend coverage 
by FPS at all, just like throughout the rest of the Country. 
The National Capital Region has suffered in the same way that 
the other regions have.
    Ms. Norton. So even in this region there are level IV 
buildings without nighttime or weekend FPS coverage.
    Mr. Goldstein. Yes, ma'am.
    Ms. Norton. Now, what that means is that the only coverage, 
if any, would be from stationary security guards?
    Mr. Goldstein. That is correct, or if there happens to be a 
local metropolitan police officer nearby who may see something.
    Ms. Norton. Trust me on that one. So that the theory is 
that you can't get into the building passed the security 
guards, so there couldn't be a crime within the building?
    Mr. Goldstein. That would be part of the rationale. But one 
of the biggest concerns remaining, of course, is that you would 
be undetected if you were surveilling those level IV buildings 
for terrorist purposes, and much of that work is done in 
evenings or on the weekends, when potential terrorists will 
know that there isn't really coverage and that nobody is 
watching them.
    Ms. Norton. Now, staff does have admission to do work in 
level IV buildings here and throughout the Country, is that so?
    Mr. Goldstein. That is correct. And there are, in some 
facilities, in one region we visited, there are a number of 
facilities that I can think of where there are weekend hours 
for the public. And in discussing the coverage of FPS, GAO 
actually ended up being the entity that told an agency that I 
have in mind that FPS was not covering their facility on the 
weekend, and the agency was very surprised to learn that and 
indicated that it might have to shut its doors on the weekend 
as a result.
    Ms. Norton. And that is even though it was open on the 
weekends and visitors, that is to say, taxpayers and others 
from the public----
    Mr. Goldstein. That is correct. This was a level IV 
building as well.
    Ms. Norton. Well, you can understand our concern, Mr. 
Goldstein. Let me ask you about the contract guard role. Now, 
how many FPS personnel--leave aside the inspector and the 
smaller number that do any patrols. How many FPS police are 
there?
    Mr. Goldstein. As of the end of 2007, there were 215 police 
officers.
    Ms. Norton. And how many security guards?
    Mr. Goldstein. There are 15,000. That has remained 
relatively stable, while the number of police officers has 
dropped about 40 percent since 2004.
    Ms. Norton. And there were how many in 2004?
    Mr. Goldstein. 359 police officers in 2004.
    Ms. Norton. Now, who supervises the contract security 
guards?
    Mr. Goldstein. It is a combination of the inspectors and 
the police officers. The principal responsibility is for the 
inspectors, because they have contract authority, but the 
police officers help in checking out the stations in the 
buildings as they go through. But it is principally the 
inspectors. And as our report indicates, there are a number of 
difficulties there, and because of the distance between Federal 
facilities, as well as the decrease in staffing, many contract 
guards have not seen an FPS official at their station in a long 
time, and we had officials tell us that they hadn't visited 
contract guard stations in some Federal facilities in a year or 
18 months.
    Ms. Norton. That who hadn't, the FPS had not visited?
    Mr. Goldstein. Correct, in a year or 18 months to some 
facilities. They are supposed to visit monthly, and it has 
gotten to the point where many inspectors have been encouraged 
to do their reviews by telephone.
    Ms. Norton. And this would mean even during the regular 
work week no FPS?
    Mr. Goldstein. Right, for many buildings, because there are 
a limited number of inspectors. Many buildings are in rural 
areas or places that are far from where an FPS inspector lives, 
so oftentimes there is no coverage or very limited coverage.
    Ms. Norton. Are the contract guards peace officers?
    Mr. Goldstein. No, ma'am, they are not.
    Ms. Norton. So they do not have the power to arrest.
    Mr. Goldstein. That is correct.
    Ms. Norton. So a contract guard in a building which has not 
been visited in a couple of months by a FPS officer or 
inspector would have about the same power as I have to make an 
arrest.
    Mr. Goldstein. That is correct.
    Ms. Norton. Does he have the power to pursue a criminal?
    Mr. Goldstein. He can detain a perpetrator, but, based on 
our experience and our discussions--and I believe we indicated 
in our testimony--there are a number of instances we have 
already--and this is before we have thoroughly investigated the 
contract guard program, which we are about to do as well--that 
contract guards are being told by their contract guard 
companies to not get involved because of the liability.
    We have in this report one instance that shows that, in 
which an officer was chasing an individual through a Federal 
building, a level IV Federal building. That individual had been 
in the process of being detained, had a handcuff on one arm, in 
the struggle lost most of his shirt; the perpetrator went 
flying through the lobby of the building pursued by an FPS 
officer. There were several contract guards, all of whom were 
armed, in the lobby; they simply stepped aside. The individual 
went flying out the front door, and was only caught several 
blocks away by another FPS officer who happened to be going by 
in a patrol car.
    So, no, the contract guards, even when armed and in the 
lobby, are not----
    Ms. Norton. This is a bizarre kind of story. Why would 
there be a liability problem for a security guard that was 
maintained by the Federal Government? What is the liability 
problem?
    Mr. Goldstein. It is something we are going to investigate. 
We haven't done the work to really get into that issue yet, but 
it was raised in a number of the interviews we had. But we will 
get back to the Committee on that issue.
    Ms. Norton. This is mysterious to me, very mysterious, that 
the Federal Government could have security guards for which it 
had not accepted liability. So I am not----
    Mr. Goldstein. I understand.
    Ms. Norton. Well, the notion that this is a question--legal 
matters like this get settled well before you decide to use a 
workforce other than your own. This is extremely disturbing, I 
say as a lawyer who does not relish litigation.
    I am going to ask Mr. Shuster for any questions he may 
have.
    Mr. Shuster. Thank you, Madam Chair.
    Thank you, Mr. Goldstein, for being here today.
    Mr. Goldstein. Yes, sir.
    Mr. Shuster. I believe in your report you pointed out that 
many--I don't want to quantify this, but a lot of the 
inspections were being conducted without inspectors actually 
going to the site, doing it, I think it says, by e-mail? Is 
that a significant number?
    Mr. Goldstein. By telephone.
    Mr. Shuster. A significant number?
    Mr. Goldstein. There were instances where inspectors were 
encouraged by their regional administrators to complete their 
inspections of contract guards by telephone, since there was 
either no money or time to complete them. One of the big 
problems that we faced is--in one region this is a big issue. 
They are supposed to, as I say, review contract guard posts 
monthly. In one region that we visited, in one metropolitan 
city, only 20 of the 68 facilities had been visited that month.
    Mr. Shuster. Can you do an adequate job by doing it by 
phone?
    Mr. Goldstein. I can't imagine how you would be able to do 
that, no, sir.
    Mr. Shuster. You need to go out there. How long ago was 
your report done? When did you find that out?
    Mr. Goldstein. This was fairly recent. These were all 
issues that were raised in our field work for the report that 
we are releasing today.
    Mr. Shuster. And was it just significant in that one 
region, or was it widespread throughout the Country?
    Mr. Goldstein. Well, the issue of reporting by telephone 
was raised in more than one location. The one where I am 
referring to, 20 out of the 68, just happened to be the log in 
one region that we talked to.
    Mr. Shuster. What do you think it takes to do an 
assessment, hours, man-hours, days?
    Mr. Goldstein. Usually, you try to check each month to be 
able to determine if people are reporting, if they had their 
certifications, if they are in the right places, the kind of 
incidents that they have had. Inspectors are also required to 
check time sheets for the contract guards as well.
    Mr. Shuster. Right. I am talking more about building 
security assessments.
    Mr. Goldstein. Oh, the building security assessments.
    Mr. Shuster. Yes, I am sorry.
    Mr. Goldstein. There are a lot of things that go into it. 
In fact, inspectors receive training to be able to do building 
security assessments. Many of the inspectors and regional 
officers indicated to us that the training for building 
security assessments is not adequate and that refresher courses 
are needed. FPS has begun to provide them, but many of the 
field offices have not had a refresher course yet. And many of 
the inspectors that we talked to said that they really don't 
have a good grasp of the kinds of things that are supposed to 
go into that security assessment.
    Mr. Shuster. Let's back up a second. The building security 
assessments, were they being done without actually going to the 
building also?
    Mr. Goldstein. There were some instances of that occurring. 
There were some instances where building security assessments 
were being simply cut and pasted from previous years, where 
nothing had changed, and there had been some examples where 
people weren't even doing that, where they were simply making 
it up.
    Mr. Shuster. And, in your view, you really can't do a 
complete and adequate assessment unless you go to the building.
    Mr. Goldstein. Even more than that, sir. There are time 
frames that are actually recommended for them. A level IV 
building assessment is supposed to take a couple weeks to 
accomplish. Because of the problems that they have had in 
maintaining a workforce that had the skills to do this and the 
number of building assessments they have had to do, in many 
instances they don't get more than a day or two, or sometimes a 
couple of hours, in which they are supposed to do this.
    Mr. Shuster. When you say weeks, is that one person?
    Mr. Goldstein. One person.
    Mr. Shuster. One person.
    Mr. Goldstein. And a number of the tools that they need, 
lighting assessment tools and the like, they don't have those 
actual tools to complete those parts of the assessment because 
they don't have the funds to pay for them.
    Mr. Shuster. I note that some of the Federal agencies have 
resorted to hiring private firms to do the BSA.
    Mr. Goldstein. And other Government agencies as well, such 
as the Corps of Engineers.
    Mr. Shuster. And how does that work? What is your view on 
that as far as can it be done effectively? Is it done 
effectively?
    Mr. Goldstein. Well, it can be done effectively. The 
problem is they are already still paying for that. They are 
paying twice.
    Mr. Shuster. So they are paying the Federal Government 
Service----
    Mr. Goldstein. That is right, because they are already 
paying FPS to do them.
    Mr. Shuster. And I understand there are some reports that 
these building security assessments, there is some pressure in 
a particular region to speed them up because there is----
    Mr. Goldstein. There is a major political event coming 
later this year, so there is considerable pressure to have all 
the building security assessments done by the end of this 
month, I believe.
    Mr. Shuster. And the impact on the quality of the 
assessment is?
    Mr. Goldstein. We haven't looked at that, but one would 
assume that could be an issue.
    Mr. Shuster. All right, I have no further questions. Thank 
you.
    Mr. Goldstein. Thank you, sir.
    Ms. Norton. Mr. Goldstein, I would like the objective view, 
your objective view of the effect that all of this has had on 
the morale of, let us say, the average FPS officer.
    Mr. Goldstein. Sure. I mean, morale is not good. I mean, it 
is very simple: they don't have the equipment; officers don't 
have career paths; and they, in many instances, have been told 
to leave because of the decimation of the patrol function.
    Ms. Norton. Now, they don't have career paths because?
    Mr. Goldstein. Because they can't advance to the inspector 
ranks.
    Ms. Norton. And the reason they can't?
    Mr. Goldstein. They don't have the training and the skills 
base to do that, and FPS has not had the money to provide 
training for that.
    Ms. Norton. This is a police force in stalemate; it is just 
there. It sounds like it is there in name only.
    Mr. Goldstein. It is increasingly fragile, I think that is 
correct. Inspectors are overworked and they are overwhelmed. 
These are all people who want to do a good job, but they are 
being hamstrung in many ways by the problems.
    Ms. Norton. Every police force has people who get to the 
retirement age. Are they recruiting officers, younger officers 
to come in?
    Mr. Goldstein. They have had a number of problems doing 
that because, at least in the current environment, most people 
know that FPS is not a place, at least if you want to be a 
police officer, where you are going to be able to have a 
career, because they are phasing out that function. If you want 
to be an inspector and handle some of the other, sort of the 
broad panoply of issues that we talked about, an inspector has 
so many responsibilities and many of them are very overwhelmed 
by this, and I think only the addition of additional inspectors 
will help to start to alleviate that problem will you see a 
change. People are, I think, understandably wary at this point 
in time of joining the Federal Protective Service.
    Ms. Norton. Well, if you were recruited for the Federal 
Protective Service today, would you be recruited as a police 
officer or as one of these inspectors?
    Mr. Goldstein. My understanding is that they are not hiring 
police officers, only inspectors, and that they are attaining 
and seeing the police officer function phase out.
    Ms. Norton. So you are saying to us that their goal is to 
have no police officers and only inspectors?
    Mr. Goldstein. That is correct. We were told that both in 
the field and at headquarters that that is the goal.
    Ms. Norton. Who then would patrol?
    Mr. Goldstein. There would really not be patrols. The law 
enforcement function would be one part of the inspectors' 
responsibility. But as we have indicated, the inspectors have 
oversight of contract guards, building security assessments, 
they are the contracting officer technical representatives, 
they have law enforcement response, criminal investigations, 
collecting contract guard time cards, and they are also 
responsible for the building security committee support.
    Ms. Norton. So it doesn't mention patrolling in there?
    Mr. Goldstein. No, ma'am.
    Ms. Norton. In that list?
    Mr. Goldstein. No. There is law enforcement response, but, 
again, that is only one of the many functions they have.
    Ms. Norton. Well, response is, as I take it, once 
somebody----
    Mr. Goldstein. It is a response, it is not proactive, that 
is correct.
    Ms. Norton. Yes. Well, to say this is serious is to make a 
vast understatement.
    I am going to ask the Full Committee Chairman, Mr. 
Oberstar, who has had a continuing serious interest in this 
issue, whether he has any questions or any statement. I 
appreciate his coming today.
    Mr. Oberstar. Thank you, Madam Chair. Thank you for being 
very vigilant and diligent in following up on this issue. And I 
thank the gentleman from Missouri, the Ranking Member, for 
pursuing the matter further following our hearing last year.
    It was shocking when we received information about the 
shortcomings that we heard, flaws and outright failures in the 
protection of the Federal workforce in the Federal office 
buildings across the Country. There are over 9,000 buildings 
that GSA either owns or leases. That is some 367 million square 
feet of Federal civilian office space. There is nearly $42 
billion asset value in those properties. They are scattered in 
every State all across the Nation.
    And we have a Federal workforce of various sizes in various 
communities, and the shocking thing that we heard last year was 
that a sizeable portion of the Federal Protective Service had 
been contracted out to private security guards that over the 
past three years the workforce of police force has been cut 40 
percent. Inspectors were cut 10 percent, at a time when we are 
mounting a massive national Homeland Security initiative.
    It seemed to me inconsistent with the mission of the 
Homeland Security Department to have one of the components of 
that agency cut its workforce, cut the number of inspectors and 
contract work out at the very time when we did the opposite 
with aviation. For years we had the security workforce at 
airports contracted for by the airlines to the lowest bidder, 
with reports of certain airport facilities, turnover as much as 
four-fold or six-fold. They couldn't keep trained personnel on 
station; they didn't have money to do and didn't do training or 
retraining. The way up for security personnel at domestic 
airports was a job at McDonald's in the airport terminal.
    I served on the PanAm 103 Commission in the aftermath of 
that tragedy, and we proposed a federalized workforce 
comparable to that which existed in Germany in the course of 
our inquiry overseas, but the then Bush I administration would 
not hear of it. We backed off and included other measures that 
we thought were of great significance, and when they didn't act 
just introduced a bill incorporating in legislative language 
the 63 recommendations of our commission, and eventually we got 
those enacted.
    Then came September 11th. Now we have the federalized 
workforce, and it is in place and it is professional. You can 
go to every airport around the Country and get the same 
treatment. And I have been in about half the States, at any 
rate, at least, all of the major airports, and now with my new 
replacement metal hip I set off the alarms and I get the same 
treatment at every airport, the same pat-down, the same 
procedure, and that is wonderful.
    But now that is what we need in the Federal office 
buildings. I thought that after the alarming reports that we 
heard last year, things would get better. But, in fact, more 
private contract guards have been hired, according to your 
report, to replace the Federal Protective Service workforce; 
that armed guards and that contract authority guards took no 
action while a suspect with no shirt and handcuffs ran through 
the lobby of a Federal building; a GAO investigator witnessed a 
person trying to enter a high security facility with illegal 
weapons; contract guards allowed him to leave with the guns. 
What is this? What kind of system is this?
    I heard you say a moment ago that morale is deteriorating. 
Have you found that throughout the system in various Federal 
office buildings, that the existing Federal workforce morale 
has deteriorated?
    Mr. Goldstein. We found in our interviews throughout the 
regions that we went to that morale was a significant problem 
because of what FPS is facing and the challenges that they have 
to overcome. Yes, sir, in all the regions that we visited that 
was the case.
    Mr. Oberstar. That is the same in the air traffic control 
workforce. They have not had increase in personnel; they are 
working longer hours; more hours at controls without respite; 
instead of a break after two hours; they are working three 
hours continuously at shift; not getting respite time, leave 
time, retraining time; and morale is deteriorating. Plus, their 
pay has been frozen at September 2006 levels. So if we are 
again repeating that situation in the protective workforce----
    Mr. Goldstein. It sounds very similar, sir, yes.
    Mr. Oberstar. Who conducts the building security 
assessment?
    Mr. Goldstein. The inspectors do, sir. There are 541 
inspectors within the Federal Protective Service, and among 
their responsibilities that I mentioned a few minutes ago are 
the building security assessments.
    Mr. Oberstar. And do the members of the contract workforce 
participate in those assessments?
    Mr. Goldstein. No. Their job is solely to remain in fixed 
posts and to secure the entrances and exits of the building.
    Mr. Oberstar. Then when the assessment is completed, who 
acts on the recommendations of the assessment?
    Mr. Goldstein. The assessments are provided to a building 
security committee. Every Federal building has a security 
committee that is made up of a representative of each tenant 
agency, and they get together on a regular basis and they 
evaluate the security assessments and the kind of measures that 
FPS is suggesting be put in place. In very few instances, 
however, are the measures that FPS is recommending actually 
implemented, for several reasons, one of which is that the 
individuals who sit on a building security committee are lay 
people, they do not have security expertise to determine what 
should or should not be incorporated into a building security.
    Second of all, they don't have the authority to provide the 
funds to FPS to implement the measures; they have to go back to 
their headquarters and get permission to do so, and very rarely 
does that occur. Then, thirdly, when the measure is something 
the Federal Protective Service itself would implement, regional 
officials have told the inspectors not to include those 
particular items as part of the recommendations because the 
regional offices of FPS don't have the money to actually put 
those things in place either.
    So it has gotten kind of to be a crazy situation. They are 
spending a lot of time and effort and money in completing 
building security assessments that in many instances don't go 
anywhere and nothing comes of them.
    Mr. Oberstar. You anticipated my next two questions in your 
answer, thank you. Thank you, but that is shocking. That is 
astonishing to me that there is an assessment conducted and the 
personnel responsible for implementing tell the FPS don't do 
this, tell the building personnel don't do it because we don't 
have the money to implement it?
    Mr. Goldstein. Because we don't have the money or our 
headquarters agency doesn't believe that it is something we 
ought to do or be involved in. So it is security by committee 
of lay people of, say, the Social Security Administration or 
HHS, or whomever happens to be a building tenant. They are the 
ones who make these decisions and, as I say, rarely do the 
actual countermeasures, such as an additional magnetometer or 
night patrol or something that would help improve security, 
actually get implemented because of the cost or even 
understanding what the threat might be.
    Mr. Oberstar. Isn't that creating holes in our security 
protection for Federal office buildings?
    Mr. Goldstein. Sure it is. Because if the premise is that 
the agency is trying to improve the security of Federal 
buildings and you do a security assessment and you make 
recommendations on how individual buildings might be better 
secured, and then nobody takes any action for all the reasons I 
have mentioned, then not only is the building not secure, but 
you have also wasted public funds to try to achieve that 
objective.
    Mr. Oberstar. Did you find a differentiation among types of 
Federal buildings, that is, courthouses in one category, Social 
Security in others, veterans in others?
    Mr. Goldstein. In terms of?
    Mr. Oberstar. In terms of the security risk.
    Mr. Goldstein. Well, there are four levels. There are 
actually five building security level risks that were put in 
place after the Oklahoma City bombing, the lowest being a level 
I, which is usually a storefront, sort of where you might go in 
for IRS or Social Security, and a level V, which is something 
like the CIA Headquarters, which is not protected by FPS, they 
only protect up to a level IV. But as we indicated earlier, the 
basic security fees are paid by tenants regardless of the level 
of security that a building has.
    Mr. Oberstar. Following last year's hearing and our request 
for GAO review, I stopped in to various Social Security offices 
in my district and there is, in each one, a security officer, 
usually a retired police officer from the community who has 
been engaged by Federal Protective Service or, I think in one 
case, by Social Security Administration--at least that is what 
I think it is. But every day or at least in the larger 
facilities almost every day there is some disgruntled person--
not a terrorist with a bomb strapped to the body to blow the 
place up, but a disgruntled person who can make a scene and who 
is, therefore, intimidating to citizens who are coming to the 
facility for resolution of their various problems and to the 
Social Security Administration personnel. In others it is at 
least once a week there is some disgruntled person.
    And I asked them, supposing somebody really intended to do 
harm, come with a bomb strapped to their leg or their body. Oh, 
we don't have a magnetometer here, we don't have an x-ray 
machine. The larger facilities, where there is a courthouse 
associated with the Federal building, they do have the x-ray 
machines and magnetometers.
    We have these various levels of risk. Just my own random 
observation, backed by some years of experience in the 
investigative business, found these gaps in security. How do 
you rate the five levels of security standing for the Federal 
buildings under FPS jurisdiction? Did you find fewer problems 
at the lower security level Is and more at the level Vs, or 
what did you find?
    Mr. Goldstein. We had a similar experience as you did, Mr. 
Oberstar, in terms of, with level I facilities such as Social 
Security or IRS, there they just have a storefront, that they 
are as vulnerable, if not more so, than the larger buildings 
because, as you say, they rarely have a magnetometer, they 
might have an off-duty police officer or a contract guard that 
they have hired, but they do have significant incidents and 
threats of incidents all the time.
    And many Social Security offices that we talked to as part 
of who are on building security committees and the like express 
the same thing that you are saying as well. So they have 
significant threats that they have to encounter without the 
kind of resources that some of the larger buildings that do 
have, say, magnetometers or additional guards or even perhaps 
an FPS presence would have. Their recourse is to call local law 
enforcement, just like any other citizen. That is what they 
have.
    Mr. Oberstar. And in some cases it takes a while for law 
enforcement to respond.
    Mr. Goldstein. Sure. And an FPS officer is likely to take a 
much longer time. One of the things we did find, and our report 
highlights, is in many instances it will take hours, sometimes 
days, for FPS actually to respond to an incident because there 
isn't a local FPS presence and they have to come from out of 
State, or certainly out of a city. So the only response of any 
consequence would be a local response.
    Mr. Oberstar. Good heavens. That is outrageous. Now, when 
there is an incident and the Federal Protective Service 
contract guard comes on the scene, they don't have law 
enforcement authority; they don't have ability to arrest. What 
is the effect of their presence?
    Mr. Goldstein. The contract guards at Federal buildings are 
used to allow people in and out of buildings. They guard access 
to the building, principally, and they watch people as they go 
through x-ray machines and they monitor the magnetometers, 
where they exist, as well.
    But as we indicated in our report, there are a number of 
issues associated with the contract guard program, and it is 
something that we are starting to now look at. Now that we have 
finished this report for the Committee, we are starting to look 
at the contract guard program, and we will provide more 
information at a later date.
    But we did find a number of instances, just based on our 
preliminary observations, of how the FPS monitors and oversees 
the contract guards and the roles and responsibilities of the 
contract guards themselves. So, yes, this is something that we 
will take a further look at.
    Mr. Oberstar. [Presiding] I ask Mr. Graves if he has any 
further questions at this point. If not, then the Chair 
recognizes the gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Goldstein, you mentioned that several Government 
entities really find great importance in proactive foot 
patrols. Which of these entities, could you specifically tell 
us that?
    Mr. Goldstein. Sure. We found the Department of Homeland 
Security itself, including the Federal Protective Service, 
which has specific policy handbook for patrolling, that they 
have found that this is a very effective tool. We have also 
found that the FBI has said the same thing.
    And we would note that the 9/11 Commission, among other 
entities, has also shown that potential terrorists are 
frequently to be found, in our discussions with FPS, said the 
same thing, that surveilling of Federal property is not 
uncommon and that only using proactive patrols--to be outside 
the building and not just at access points--is going to be the 
principal way you are going to thwart this sort of thing.
    And they gave a number of instances where they have in the 
past, because they had proactive patrols, been able to thwart 
potential terrorists who were surveilling a building, 
suspicious people who were sitting in cars outside for several 
days in a row in the same car, a variety of those kinds of 
activities. And you are not going to get that kind of ability 
to thwart those kinds of things if you don't have proactive 
patrol and you are only relying on contract guards who are 
sitting at an entrance checking IDs or checking people who are 
going through x-ray machines.
    Mr. Carney. How many agencies actually have the proactive 
foot patrols?
    Mr. Goldstein. I don't know the answer to that, but we can 
try and find out and get back to you, sir.
    Mr. Carney. Yes. I would like to know that.
    Mr. Goldstein. The point is most of the Federal buildings 
are protected by--there are 9,000 Federal buildings, which is 
the bulk of the Federal portfolio, and they are protected by 
FPS.
    Mr. Carney. Okay. You also mentioned that developing the 
use of resources based on risk management principles. What are 
some of the principles that we ought to be employing here?
    Mr. Goldstein. Well, one of the things that concerned us is 
that it is difficult for FPS really to tell you where and how 
they ought to be deploying their scarce resources based on 
risk, because they don't have a full risk assessment model that 
would be able to help you determine where crime or potential 
terrorism is at its worst and, therefore, haven't deployed 
resources to that kind of a model.
    They have more people in cities than they do in rural areas 
as one sort of broad-based measure, but the other problem 
related to this is their data systems are not reliable at this 
point in time and they are not able to tell you with any 
specificity or reliability how much crime is actually occurring 
where. Therefore, they can't tell you the current status of the 
threats to Federal property because that information is highly 
unreliable.
    We tried to, not only based on how they define crime and 
how crime is entered into their system, but there are very big 
differences and discrepancies between regions and headquarters 
in terms of how much crime a certain region is supposed to 
have. We also found that because of the staffing shortfalls and 
the fact that you have had such a decrease in the number of 
police officers and inspectors, the crime simply isn't being 
reported to the mega centers. What looks like a decrease in 
crime is probably not a decrease in crime because they are 
simply not being reported.
    Mr. Carney. One more question, Madam Chair, if you don't 
mind.
    It is disturbing to know that the data problem exists, that 
they don't have the data to make these determinations.
    Mr. Goldstein. They are working on fixing those systems, 
but it is going to take some time.
    Mr. Carney. Right. My concern, though, is how is the 
intelligence flow to know if there is a threat and how they 
handle that?
    Mr. Goldstein. We have heard mixed things about that, sir. 
When we were in the field, we were told by a number of the 
regions that they had very limited access to specific 
intelligence information unless they were part of the Joint 
Terrorism Task Force. That existed in several cities. But that, 
other than that they were not provided access to a lot of 
intelligence information. Our discussions at headquarters 
seemed to indicate that that wasn't the case. Also, in fact, if 
anything, there seems to be a little bit of a disconnect 
between headquarters and the field with respect to how much 
information they are getting from intelligence sources.
    Mr. Carney. Thank you, I think.
    Mr. Goldstein. Sorry.
    Mr. Carney. No further questions at this time, Madam Chair.
    Ms. Norton. [Presiding] Thank you, Mr. Carney. I am going 
to let you go, Mr. Goldstein, but because of districts like Mr. 
Carney's and, for that matter, I think perhaps Mr. Graves', I 
have got to ask you about these informal relationships and 
these MOUs. Now, in big cities like the District and New York, 
we found very little in the way of proactive patrols and very 
few FPS officers, but we, of course, learned from your report 
that these MOUs, for MOUs between local police and FPS, instead 
of FPS, were in fact not being used and they were relying on 
informal relationships.
    I have to ask you, before you go, whether you saw any 
evidence of informal relationships between local police and 
Federal facilities whereby local police were willing to be on 
call, at least, for Federal facilities or in any other way help 
to cover Federal facilities, instead of FPS.
    Mr. Goldstein. In almost all the jurisdictions that we went 
to, we spoke with local law enforcement, and most of them were 
not even aware that the Federal Protective Service had 
instituted its inspector-based system or that the FPS had 
reduced or eliminated its evening and weekend hours. So they 
had not been told that the kind of protection that Federal 
property needed had changed, and had indicated to us--in fact, 
they were being told by us, by GAO, FPS had not indicated, and 
they were surprised----
    Ms. Norton. Thank you. I just want to make sure for the 
record, because we are not only interested in high-target 
places like the District. This is a Federal police force for 
every part of the United States, and at least 50 cities were to 
be left with no FPS officers at all, and now we find that the 
MOUs don't exist at all.
    Yours has been a very sobering report, Mr. Goldstein. I 
assure you that the Subcommittee will not only take it under 
advisement, while the Full Committee Chairman was here we 
discussed what we can do right now. Thank you very much.
    Now I would like to call the next two witnesses.
    Mr. Goldstein. Thank you.
    Ms. Norton. The next witnesses are Gary Schenkel, who is 
the Director of the Federal Protective Service, and David 
Wright, the President of the FPS Union, which is AFGE Local 
918.
    I am going to begin with Mr. Schenkel.

   TESTIMONY OF GARY SCHENKEL, DIRECTOR, FEDERAL PROTECTIVE 
   SERVICE; AND DAVID WRIGHT, PRESIDENT, FEDERAL PROTECTIVE 
                         SERVICE UNION

    Mr. Schenkel. Chairwoman Norton, Ranking Member Graves, 
distinguished Members, thank you for the opportunity to appear 
before you today to address the concerns raised in the report 
issued by the Government Accountability Office and to discuss 
the business improvements that FPS has made over the past three 
years and our vision for the future.
    As this Subcommittee is aware, auditors from the Government 
Accounting Office recently had the opportunity to sample the 
day-to-day work performance by the Federal Protective Service. 
We appreciate the thoroughness of this audit and welcome the 
recommendations for improving FPS.
    Auditor work products are used throughout ICE for the 
betterment of the agency, including within FPS. With this in 
mind, I believe that it is necessary to address some of the 
points raised in the GAO report. Some additional context is 
needed.
    The transfer of the FPS into the Department of Homeland 
Security, U.S. Immigrations and Customs Enforcement, ICE, 
provided an opportunity for FPS to comprehensively assess its 
mission and to ensure that its activities were focused on 
enhancing the security of the Federal facilities it protects. 
FPS has embarked on a strategic approach to ensure that its 
operations are not only fully aligned with the goals and 
objectives of DHS and ICE and its stakeholder, but that they 
also move FPS towards greater compliance with the standards for 
internal control as established by GAO.
    Using this strategic approach and this Subcommittee's 
support and guidance, we have significantly enhanced our 
business processes, including our contracting functions. For 
example, we have improved the procurement process for guard 
services that, in the National Capital Region alone, we have 
reduced the cost of three new contract security guard contracts 
by $5.5 million in fiscal year 2008, savings that were passed 
directly to the agency client.
    This strategic approach has resulted in a number of 
achievements, including, in 2007, FPS eliminated a backlog of 
2200 invoices worth $92 million, some of which predated the 
creation of the Department of Homeland Security, all the way 
back to 1999. Chairwoman Norton's attention to this issue was 
particularly helpful to us in identifying this area for 
improvement. To improve FPS invoice payment process, ICE/FPS 
consolidated the entire process by requiring that all invoices 
be sent to a single location.
    Since the beginning of fiscal year 2008, FPS has paid 95 
percent of all invoices within 30 days. In the month of May, 
the percentage of payments paid within 30 days rose to 99.5 
percent. Part of the success in the timeliness of the invoice 
payments is the fact that we added our Contractor Officer 
Technical Representation, COTR, training to our basic training 
curriculum.
    FPS improved working relationships with its internal and 
external stakeholders through newsletters and regular 
communications. FPS also provided customer service training to 
employees and used satisfaction surveys to gage its success at 
providing comprehensive security services that are meaningful 
for FPS stakeholders. FPS formally chartered an Executive 
Advisory Council, or EAC, to coordinate security strategies and 
activities, policy and communication with Federal department 
and agency occupants of GSA-controlled facilities.
    FPS also conducted numbers of focus groups and meetings 
with stakeholders to identify and resolve issues and to 
identify systematic problems. The focus groups enabled us to 
immediately identify a common concern of our clients in that 
they want FPS personnel to increase the level of physical 
security functions, such as contract guard oversight, quality 
building security assessments, or BSAs, and higher visibility 
throughout its facilities. We heard them and we agreed that the 
physical security needs greater attention, but not at the 
exclusion of our law enforcement function.
    Among the most important improvements from a strategic 
approach is our move to a Law Enforcement Security Officer, or 
LESO, inspector-based workforce, which will meet these 
customers' concerns while affording the added protection of law 
enforcement presence. To put in proper perspective the 
importance and advantage of transforming FPS's workforce, FPS 
is responsible for protecting approximately 9,000 GSA owned and 
leased buildings in 2003.
    At that time, only 55 percent of FPS law enforcement staff 
was qualified to conduct BSAs, a core FPS activity. As a 
result, the assessment function received far less attention 
than it required. Law enforcement staff qualified to conduct 
BSAs were stretched too thin, producing assessments that were 
inaccurate, incomplete, and untimely. Today, as FPS moves 
closer to a LESO-based workforce, more than 80 percent of its 
law enforcement staff is qualified to perform FPS's core 
mission requirements. LESOs still retain law enforcement 
authority and are able to conduct BSAs that are more accurate, 
complete, and timely.
    The advantages of the LESO-based workforce are 
strategically aligned with the core mission of FPS: securing 
facilities and safeguarding their occupants. The LESO position 
incorporates the law enforcement duties of the Federal 
facilities FPS protects. In addition, the LESO receives 
extensive training in risk management, risk assessment, and 
countermeasures to mitigate those risks. A LESO-based workforce 
provides built-in flexibility to perform law enforcement and 
physical security functions. A LESO can be at a GSA facility 
performing an inspection or providing contract guard oversight 
and, if the need arises, immediately provide police response to 
a criminal activity.
    FPS decided to integrate the entire security program by 
making the contract security guard program a true extension of 
its law enforcement activities by combining the 
responsibilities. A LESO-based workforce allows FPS the 
necessary flexibility to provide law enforcement and immediate 
corrective action to all countermeasures, including our 
contract security guards. Under the prior bifurcation of 
security operations, law enforcement had little or no oversight 
over the contract guard program or other integrated security 
countermeasures.
    Differences in the traditional police officer and LESO 
position begin with basic training. The police officer receives 
basic law enforcement instruction in the Uniform Police 
Training Program, or UPTP, at the Federal Law Enforcement 
Training Center. For the police officer, basic training ends 
there. Basic training for the LESO only begins at UPTP. 
Following completion of the basic law enforcement training 
curriculum, the LESO Inspector is enrolled in the physical 
security training program. This advanced course provides the 
LESO extensive instruction in training and risk assessments, 
threat analysis, risk management, risk mitigation, and the 
latest technological advancements and countermeasures. To 
improve FPS's contract oversight capability, we have also added 
a training module that prepares the LESO to perform the duties 
of the Contract Officer's Technical Representative, or COTR.
    Notwithstanding the important issues and recommendations 
offered by the GAO, we agree that more can be done, including 
the following: a strategic risk-based approach to staffing is 
needed, and we have begun the process of doing that using 
several workload studies and analysis that have been conducted; 
there is a need to clarify the responsibility of local law 
enforcement and first responders, and we intend to work closely 
with our law enforcement partners in this effort; we must 
incorporate performance management into our law enforcement and 
administrative activities; and update our current performance 
measures.
    To this end, FPS is acquiring a new Risk Assessment and 
Management Program, also known as RAMP, to enhance its 
operational capabilities for gathering data and developing 
action plans to assess collective and individual performance. 
The RAMP will provide a suite of tools designed to ease the 
collection analysis and reporting of performance measure 
information. With respect to our collection and use of data, 
FPS will use RAMP, a secure Web-enabled tool, to conduct risk 
assessments. By building in specific workflow and enhanced 
reporting capabilities, FPS can use RAMP to identify security 
vulnerabilities and to provide the data FPS needs to make 
decisions as to workforce assignments, including conducting of 
security assessments and providing of security.
    I am extremely pleased to lead the proud and professional 
men and women of the Federal Protective Service. I interact 
with them every day and I can tell you that they are dedicated, 
determined, and committed to developing and implementing and 
maintaining security systems to ensure the facilities they are 
charged with protecting are secure and their occupants are 
safe. I am confident that they can be relied upon to ensure 
that FPS will continue to meet the challenge of its homeland 
security mission.
    Thank you again, Chairwoman Norton and Ranking Member 
Graves, for holding this important oversight hearing. I would 
be pleased to answer any questions you may have.
    Ms. Norton. Thank you, Mr. Schenkel.
    Mr. Wright.
    Mr. Wright. Chairwoman Norton, Ranking Member Graves, 
Members of the Subcommittee, my name is David Wright. I am 
President of AFG Local 918, the Federal Protective Service 
Union. I have been an FPS law enforcement officer for the past 
22 years. In the seven years since the September 11 attacks, I 
have watched with growing frustration and outrage as the 
Federal Protective Service has been allowed to deteriorate and 
drift like a rudderless, sinking ship.
    Madam Chair, every American should be shocked and 
frightened by the GAO testimony we heard today. The sole 
Federal agency charged with the critical mission of protecting 
thousands of Federal buildings and millions of people from 
terrorists and criminal attack has had its core mission 
challenges, its funding cut by $700 million since 9/11, its 
officer pay reduced by 10 percent, and its law enforcement 
ranks nearly depleted.
    If one of our local unions had performed in such a manner 
with respect to carrying out its mission and responsibilities, 
it would have been put into trusteeship. It is clear to us that 
we need Congress to act as a trustee for the Federal Protective 
Service.
    It has only been through the intervention of this and other 
Committees of Congress that we have stopped this dangerous and 
irresponsibility trend. Meanwhile, in fiscal year 2008, FPS is 
projected to have only 1,200 personnel and budgeted at 
approximately $238 million nationwide for operational expenses, 
while there are over 1,600 Capitol Police budgeted $281 million 
to protect the Capitol and Congressional offices in a 12-block 
area of Washington, D.C. The Secret Service has over 1,300 
officers in its uniformed division to protect its assigned 
facilities in Washington, D.C. The Veterans Health 
Administration employs over 2,500 police officers to protect 
154 medical centers nationwide.
    I should also add that each of the above-mentioned agencies 
use extensive proactive patrol by police officers to detect and 
deter attack, the very critical activities that GAO has found 
missing in FPS.
    The questions we need to answer today are why was this 
allowed to happen to FPS and what needs to be done. My written 
testimony answers both of those questions in detail, so I would 
ask that it be submitted for the record. I also want to make 
four key points here this afternoon.
    Regardless of why this agency has been allowed to ``twist 
in the wind,'' as the Senate DHS Appropriations Committee put 
it last year, we need to continue to rebuild the FPS in a rapid 
manner. A comprehensive review and assessment of manpower 
needs, as called for by GAO, and a request for sufficient 
personnel to perform the mission must be produced by the agency 
as quickly as possible. In the interim, Local 918 is asking 
Congress to increase the current level of 1200 personnel--that 
includes about 900 law enforcement--by about 400 in the fiscal 
year 2009 DHS appropriations bill.
    GAO pointed to the importance of a uniform Federal law 
enforcement presence surrounding Federal buildings as an 
essential security requirement to detect and deter attack by 
terrorists and criminals. It is an approach embraced by all law 
enforcement agencies across the Country. Yet, it is precisely 
this component of proactive patrol that DHS and ICE have worked 
so hard to eliminate.
    The Union believes that eliminating police officers and 
maintaining a depleted all-inspector workforce is a dangerous 
mistake. While inspectors can and do perform law enforcement 
tasks, they also have a very different set of responsibilities 
on a day-to-day basis: overseeing the contract guard workforce; 
performing building security assessments, which is very labor-
intensive; training employees in regards to workplace violence; 
and other security issues, to name several. In the performance 
of these duties, it is less likely that inspectors will uncover 
criminal or terrorist activity. Such activity is far more often 
revealed through community interaction and continuous law 
enforcement uniform patrol, which are the primary 
responsibilities of FPS police officers.
    Three, in the post-9/11 world of today, it makes absolutely 
no sense to rely on a square footage base fee to entirely 
determine the funding for FPS. While the Union does not oppose 
the continued funding of some optional FPS services through 
this funding mechanism, we strongly believe that most 
activities of FPS can and should be funded through annual 
appropriations. I have to reiterate, as I have over the past 
two years, the current funding formula is the root cause of the 
problems at FPS and it is in desperate need of reform.
    My fourth point, just within the past two years, FPS police 
officers and other law enforcement officers have seen their pay 
cut by 10 percent. Many have been told that their jobs were 
being eliminated and we have watched as the agency's core 
mission has been threatened by a misguided attempt of non-law 
enforcement bureaucrats to eliminate critical FPS law 
enforcement activities. I can tell you we have lost many 
talented, experienced officers as a result, and it will not be 
easy to attract them back or to hire new personnel to replace 
them in any short manner of time.
    Evidently, the agency is finding this out as it tries to 
recruit new personnel for the positions required under last 
year's appropriations bill. As you can imagine, morale is in 
the tank. Your FPS law enforcement officers have borne the 
brunt of recent FPS budget reductions and we need Congress to 
step in. We have borne that brunt. We have taken the pay cuts; 
we have been out there without the equipment, without the 
supplies, without the uniforms. I have guys paying for uniforms 
out of pocket, I have guys paying for equipment out of pocket, 
and we will never see that money back.
    Restoration of retention pay and the provision of law 
enforcement retirement benefits are two changes that should be 
implemented as part of any FPS building process. By the way, 
retention pay, as alluded to, when they cut retention pay a 
couple years ago, amounts to less than $5 million annually. As 
a result of losing that 10 percent retention pay, we have lost 
approximately 150 to 170 officers and inspectors.
    Madam Chair, I believe the state of the FPS right now is 
little different from that of the airline industry security 
prior to 9/11. There, a reliance on poorly trained, un-
monitored contract guards with no law enforcement authority, 
with security implementation by conflicting entities, an 
unworkable funding structure, and a perception of security 
through inspections, instead of protection by boots on the 
ground Federal officers, proved disastrous. It should not have 
happened then and it should not be allowed to happen now.
    I will be glad to answer your questions.
    Ms. Norton. Thank you, Mr. Wright.
    I am going to go first to the Ranking Member, Mr. Graves.
    Mr. Graves. Thank you, Madam Chair.
    The core mission of FPS is to protect Federal buildings, 
the people who work in them, obviously, the people who visit 
them, and we all know, we all agree that Federal buildings are 
obviously targets. The GAO study concluded that many Federal 
buildings are more at risk of crime and terrorist attacks, 
which basically shows that FPS isn't adequately fulfilling its 
basic mission. Yet, during the time when we had some level IV 
buildings that did not have building assessments completed, FPS 
still had the time and resources to conduct security 
assessments of private residences of Federal officials, and I 
am surprised that nobody is talking about this.
    My question, Mr. Schenkel, is how many of these assessments 
of private residences did FPS perform and whose were they?
    Mr. Schenkel. I am aware of six. I have a list. They were 
performed. The most recent was probably two years ago, and they 
go back as far a six years.
    Mr. Graves. Who are they?
    Mr. Schenkel. Senator Feinstein's residence; Assistant 
Secretary Myers' residence; Robert Brown from FEMA; Mr. Alfonso 
Jackson, former Secretary of HUD, I believe.
    I am incorrect, sir, it was five. I apologize. I thought 
there were six.
    Mr. Graves. Were there specific threats that were 
anticipated?
    Mr. Schenkel. There were specific threats in the case of 
Mr. Jackson, there were specific threats in the case of Ms. 
Myers, and implicated threats in the case of Senator Feinstein. 
I am not aware of anything on Mr. Brown, sir.
    Mr. Graves. Who requested the assessments and who 
authorized them?
    Mr. Schenkel. They would have to have been authorized by 
the regional director or whoever sat in this chair, sir. And 
they would be requested normally either by the local law 
enforcement entity responsible for that jurisdiction or another 
Federal law enforcement agency that was aware of a threat.
    Mr. Graves. Well, what is the protocol in approving 
requests like this? I mean, what criteria do you use to 
evaluate? How many requests do you get, for that matter? How 
many were turned down?
    Mr. Schenkel. I really have no idea. I can say that since 
April 1st of last year I have not seen any requests. But the 
normal protocol, if you would, would be a request from the law 
enforcement agency primarily responsible for that individual. 
In some cases it would be the Capitol Police, in some cases it 
would be the local law enforcement. They would request through 
a letter saying we request your assistance on a security 
assessment of a residence and then it would have to be handled 
on a case-by-case basis.
    Mr. Graves. Is FPS reimbursed for all of these, for the 
resources, the manpower, whatever is done?
    Mr. Schenkel. Not that I am aware of.
    Mr. Graves. Well, do you think these assessments were 
appropriate use of FPS resources?
    Mr. Schenkel. Not having been in the chair at the time, I 
would have to evaluate them very seriously, especially under 
the constraints that we have right now with the limited 
resources, sir.
    Mr. Graves. I mean, everybody is talking about manpower 
shortages and everybody is talking about all of these problems, 
but, yet, we have got folks running around doing--not only 
that, we are not even touching on the issues of FPS personnel 
doing things other than what they are supposed to be doing in 
homeland security.
    I will ask Mr. Wright, too, do you think that is an 
appropriate use of FPS personnel?
    Mr. Wright. I can say that I have never seen any protocol 
for assessments on private residences. A proper security 
assessment I believe would average around 80 hours. You are 
talking about an inspector at nearly $40 an hour, then you have 
the management process, the review process from there. We are 
talking probably $3500 for each of these assessments. These are 
Federal officials. Certainly, these assessments could have been 
conducted by other security professionals. Certainly, they 
could have offered to reimburse. Apparently, that didn't 
happen.
    I find this absolutely disturbing if this happened. We have 
known about the financial plight of FPS since we moved into 
Department of Homeland Security. Matter of fact, we have known 
about the financial plight since before March of 2003, when we 
came into Homeland Security, so, to me, this is inexcusable. It 
is a fraud, waste, and abuse issue.
    Mr. Graves. Well, the fact that there is no protocol, as 
you mentioned, too--and we haven't seen any protocol either--is 
something that disturbs me in a huge way.
    Mr. Wright. And from an agency, for Ms. Myers to have a 
security assessment done on her residence with public funds, 
and then to turn around and not endorse Law Enforcement 
Officers Safety Act for Federal Protective Service officers so 
we can protect ourselves while off duty, this is inexcusable.
    Mr. Graves. We have got reports, too, doing assessments on 
some private companies, chemical companies, for instance. Is 
that correct, doing some outside assessment work?
    Mr. Schenkel. I am not aware of anything like that, sir.
    Mr. Graves. Detailed 39 inspectors for infrastructure 
protection?
    Mr. Schenkel. That is not private security work. Those 
people, we got 39--actually, it is 30 right now, 30 inspectors 
detailed to infrastructure protection in the chemical facility 
sector, and they are doing inspections at chemical plants. They 
are Federal employees, they are just detailed to infrastructure 
protection and performing under the direction of infrastructure 
protection.
    Mr. Graves. But it is a private facility.
    Mr. Schenkel. These are private facilities, yes, sir.
    Mr. Graves. I appreciate it, Madam Chair. Obviously, we 
have got problems that run pretty deep.
    Ms. Norton. I think you brought out some of them.
    Mr. Graves. I appreciate your testimony very much.
    Ms. Norton. But the inspectors that the Ranking Member just 
raised, the physical security specialists, these people could 
be doing some of the inspections in Federal buildings, could 
they not?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Well, why are they being detailed to private 
chemical plants, who can hire their own people with expertise? 
Why are we doing that?
    Mr. Schenkel. Under the President's fiscal year 2008 
budget, we only had enough resources to support a force of 950. 
Under the same situation, we promised that no one would lose a 
job. So those are fully reimbursable positions paid for by IP.
    Ms. Norton. So this brings money to keep these people 
working, these people who are necessary for the agency. In 
fact, if truth be told, this change to inspector-based 
workforce, Mr. Schenkel, is really driven by funding, isn't it?
    Mr. Schenkel. Yes and no. I have to answer that truthfully 
because as much as we have discussed here, the testimony from 
Mr. Goldstein, the old GAO reports, we cite proactive patrol on 
the law enforcement side as being a negative, and there are 
multiple negatives on the physical security side. So with 
limited resources in that aspect, yes, ma'am, I have to 
concentrate my activities.
    Ms. Norton. We are just trying to get to the bottom of 
this. Now, here the testimony is that the security specialists 
are bringing revenue to the agency that the agency cannot get 
in any other way, because they are being hired out; therefore, 
the agency is being reimbursed. If they were employed in the 
agency, of course, the agency would have to take it out of 
appropriations, which the agency does not have.
    Mr. Schenkel. That is correct.
    Ms. Norton. Now, I want to establish that these inspectors, 
physical security specialists, could be doing some of the very 
same work that law enforcement officers now used as inspectors 
are doing, isn't that correct?
    Mr. Schenkel. Yes, ma'am. The people on the IP detail are 
LESOs, they are all LESOs. The common term is inspector, but 
they are all law enforcement security officers, not physical 
security specialists.
    Ms. Norton. I am trying to make sure. But could not the 
physical security specialists be doing this work inside of 
Federal buildings, were we able to afford them?
    Mr. Schenkel. Yes, ma'am
    Ms. Norton. Instead of law enforcement officers.
    Mr. Schenkel. I don't believe that they would have the 
expertise. A regular physical security specialists, 
unfortunately, when we came out of GSA, there were about 140 
different position descriptions. The physical security 
specialist title actually applies to a multiple faceted 
responsibility. Some----
    Ms. Norton. Well, you know, these are people who can adapt 
themselves and get trained, apparently, pretty quickly by the 
private sector to inspect chemical plants. They must have some 
core knowledge.
    Mr. Schenkel. Those are LESOs, ma'am.
    Ms. Norton. Excuse me?
    Mr. Schenkel. I am sorry, we are confusing two different 
positions here. The people that are at the IP detail that are 
doing the physical inspections of the chemical plants are law 
enforcement security officers, or inspectors, the same as we 
would use for the BSAs.
    Ms. Norton. They are law enforcement officers?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Who would be doing work inside the agency if we 
could afford them?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. According to the GAO report--I am now reading 
directly from the report. I think we just need to get this 
straight. The GAO says that the FPS currently is in the process 
of training to an all-inspector workforce and adding 150 
inspectors to the workforce. Is that the case?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Now, that means that you are in the process of 
converting from a police force, the core mission before this 
change, to a group of inspectors who do not patrol.
    Mr. Schenkel. I don't want to disagree with you, ma'am, but 
that is not quite correct, because by going to a 100 percent 
law inspector security officer force, I then have the 
flexibility, as opposed to before, as I stated, 55 percent of 
my force being able to do just the physical security parts or 
being overburdened with the physical security parts, I can now 
take 100----
    Ms. Norton. But the primary function of the FPS officer is 
not going to be the normal routine proactive patrol that we 
associate with the regular police officer mission throughout 
the United States. Is that not the case?
    Mr.  Schenkel. Part of their time they will be dedicated to 
proactive patrol.
    Ms. Norton. How much of their time?
    Mr. Schenkel. Roughly 20 percent.
    Ms. Norton. So for 9,000 buildings with stationary guards, 
20 percent of the time of the police officer will be spent in 
patrols.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Or simply responding and all that goes with 
police work. Which?
    Mr. Schenkel. No, in proactive patrol.
    Ms. Norton. In proactive patrol.
    Mr. Schenkel. Because we will be able to use the LESO in 
both----
    Ms. Norton. Mr. Wright, let me ask you. A police officer, 
unlike a regular Federal worker, can retire earlier, isn't that 
true? Is trained to carry a gun and is generally considered a 
very specialized Federal employee or employee if employed by 
others, is that right?
    Mr. Wright. In the case of FPS, no. FPS police officers, 
FPS inspectors, neither job classification has law enforcement 
retirement benefits.
    Ms. Norton. Neither? Sorry, would you speak into the 
microphone?
    Mr. Wright. Neither law enforcement officers, police 
officers or inspectors, neither job series is entitled to 
Federal law enforcement benefits with the Enhanced Retirement 
Bill----
    Ms. Norton. So when do they retire? When does FPS--do they 
retire at the same retirement rate as everybody else?
    Mr. Wright. Yes. With the exception of special agents, 
which is another class.
    Ms. Norton. In your judgment, do you need to be a trained 
police officer to do the inspector function that has now become 
the primary function of these officers?
    Mr. Schenkel. In my judgment, the inspectors----
    Ms. Norton. I am asking Mr. Wright.
    Mr. Schenkel. Oh, I am sorry.
    Ms. Norton. Then I will ask you.
    Mr. Wright, do you think that your officers----
    Mr. Wright. Yes.
    Ms. Norton. And then Mr. Schenkel.
    Mr. Wright. In years past, the inspector position as 
idealized--basically, what you have, the original intent, as I 
recall--I have been here for a while--was a number of FPS 
police officers handling the majority of proactive patrol and 
response duties. Like I say, this was in years past. We wanted 
to supplement that core of police officers. Whereas, we had 
unarmed physical security specialists in the past, you develop 
a cadre of inspectors. So as your police officers are 
patrolling, responding, you had this cadre of inspectors who 
are performing building security assessments, making 
recommendations for protection and so on, and be available for 
call.
    Ms. Norton. So what is the ratio of those doing these 
building assessments and those patrolling, ideally?
    Mr. Wright. That is to be determined by a workload 
assessment.
    Ms. Norton. Well, I am talking about the FPS. I am trying 
to get some sense in a Federal facility.
    Mr. Wright. In my ideal world, I would say two to one.
    Ms. Norton. Two to one what?
    Mr. Wright. More police officers than inspectors, 
definitely.
    Ms. Norton. Would you disagree with that, Mr. Schenkel? If 
this were possible. I understand now the position you are in 
now and the funding, but with all things being equal, if this 
were possible, do you agree that in the post-9/11 world, where 
we have enhanced security here to a fare-thee-well with a 50 
percent increase in Capitol police, in this same post-9/11 
world, where the Federal employee lives at the two to one 
ratio, if we could afford it, would make sense?
    Mr. Schenkel. Based on what the GSA/FPS MOA expects for 
that basic security fee, I would say Mr. Wright is probably 
underestimating the ratio.
    Ms. Norton. Because of the climate in which we live.
    I am going to go to Mr. Carney, give him a chance.
    Mr. Carney. Thank you, Madam Chair. Just a few questions.
    Mr. Wright, since 9/11, how many officers have resigned or 
retired, gone to do other things? That are outside the sort of 
normal retirement cycle.
    Mr. Wright. As I recall, around 9/11 we had about 1500 
employees, and I believe nearly 1200 officers and inspectors. 
Today, the latest figure that I have, which is probably at 
least a month old, we are down to 1,060 law enforcement.
    Mr. Carney. Mr. Schenkel, you mentioned RAMP, the program 
RAMP. When is that going to be ready to be deployed?
    Mr. Schenkel. The contract is going to be awarded within 
the next three weeks. We should have the pilot on the street in 
January 2009.
    Mr. Carney. Okay. How long is the pilot supposed to last, 
do you know?
    Mr. Schenkel. It is not determined yet, but we hope to have 
it in everyone's hands by the end of 2009 or early 2010, this 
being the reason: because we have six different systems that we 
are dependent on right now, several of which don't belong to 
us. That is why we need this system so desperately to make 
those determinations, as Mr. Wright alluded to, for those 
workload models and studies.
    Mr. Carney. Okay, when you talk about your work, Mr. 
Schenkel, with local authorities, you have a deconfliction 
issue, everywhere, I imagine. What are you doing to provide 
that deconfliction and how much do you actually rely on local 
law enforcement officials?
    Mr. Schenkel. In most areas, a great deal. With the 
exception of some exclusive jurisdictional areas, we depend 
primarily on local law enforcement. Say, for the State of 
Maine, the State of Maine has never had more than three FPS 
officers or inspectors. To think that there would be a 
commensurate response as there would be, say, at 26 Federal 
Plaza would never happen. So, consequently, we depend on these 
mutually beneficial relationships. We have bomb dogs that we 
work with local law enforcement. We do provide a physical 
security assessment if they need one for a specific event or 
facility. And that mutually beneficial and mutually supporting 
effort has worked out quite well for us.
    Mr. Carney. Okay.
    Mr. Wright, what is the state of morale with FPS officers?
    Mr. Wright. As I said in my statement, it is absolutely in 
the tank. I think the Union's efforts in keeping morale up and 
assuring the employees that things have to get better has been 
instrumental in keeping a lot of individuals around. I lost a 
lot of good friends that have departed for other agencies. Like 
I say, other than that, it is in the tank.
    Mr. Carney. Mr. Schenkel, given a reasonable estimate, if 
you could have the resources you needed--and I am not talking 
about the gold plate and everything here, I am talking about 
just the resources to do the job--how much more money do you 
need, do you think?
    Mr. Schenkel. The decision has to be made first on what our 
customer agencies have to expect for that basic security fee. 
Like I said, if it is 24 hour response, we would need 45,000 
police officers to have 24 hour coverage at every one of our 
9,000 facilities. Right now, that basic security fee gives an 
expectation that Maine will have the same kind of response in 
police presence as 26 Federal Plaza or NCR here, which is 
limited on resources as well. So to throw a dollar out without 
that starting point I think would be unfair.
    Mr. Carney. Okay, well, let's make it fair. How close are 
we to assessing that need?
    Mr. Schenkel. Well, we are entering the negotiations right 
now with GSA on our next MOA, so I think this is what the 
accountability report stresses, is that there has got to be a 
starting point and a fairness or equitable adjustment, if you 
will, on what the basic security responsibilities of FPS are 
for all 9,000 buildings, and then those that are level IV, say, 
for instance, that require a greater level of attention or a 
greater police presence.
    Mr. Carney. This will be my final question, Madam Chair.
    If you were someone who was intending to do the Country 
harm, would you be happier today or more concerned?
    Mr. Schenkel. I would be less concerned than I was a year 
ago, but I am always concerned; that is why I am in this 
business. The reason I say that is I think because we have been 
focused now on that contact guard oversight, on that 
countermeasure implementation, and the requirements that our 
customers expect, I think that our buildings are in better 
shape than they perhaps were a year and a half ago. But I think 
there is always room for great improvement.
    Mr. Carney. Mr. Wright, care to comment?
    Mr. Wright. Personally, I believe that we are more at risk 
today than prior to 9/11, similar to the days prior to the 
Oklahoma City bombing.
    Mr. Carney. No further questions.
    Ms. Norton. It is very hard to understand how things get 
better with the fewer staff you have patrolling buildings. 
Maybe I live in another kind of world.
    Mr. Schenkel, you spoke about in negotiation with GSA on 
the fees. It hasn't seemed to have gotten us very far, but it 
might if OMB were to take the lump sums that had been agreed 
upon and if they became an indirect appropriation in a lump 
sum. That would seem to be a common sense way of doing this. 
Could we ask that that be done? Is there any reason why that 
could not be done to try to at least clear up the getting the 
fees where they are supposed to go?
    Mr. Schenkel. I think that would be a good start because 
that would give that baseline appropriation, if you will, for 
those basic security requirements that FPS could offer, and 
then there would be that additional charge for any other 
building-specific charges which should include additional 
police presence in some buildings.
    Ms. Norton. Now are you willing to make that recommendation 
to OMB?
    Mr. Schenkel. I have already discussed this with them, 
ma'am.
    Ms. Norton. What has OMB said about this?
    Mr. Schenkel. They haven't said much. I haven't got a 
response.
    Ms. Norton. The Committee, we are just looking for a more 
efficient way to get at the fees question. They seemed to work 
when they were at GSA. This is very bothersome that the switch, 
where now it looks like appropriated funds come into the 
picture, and we get serious budget problems in the agency that 
weren't there before.
    Mr. Wright, do you have any view on this? One lump sum?
    Mr. Wright. Yes, that would be an absolute great first 
step. We have to make those fees invisible to the agencies 
because, as we speak, agencies are stepping away from FPS and 
forming their own physical security programs.
    Ms. Norton. Well, how are they able to do that? You mean 
they are taking what they otherwise would give, what they used 
to give to GSA, for example, and simply not giving the money at 
all?
    Is that true, Mr. Schenkel?
    Mr. Schenkel. Well, the taxpayer is paying it twice is what 
is happening. GSA is moving forward with a physical security 
program that basically duplicates what FPS is doing.
    Ms. Norton. Why have you delegated them the authority to do 
this?
    Mr. Schenkel. We have not. We have not delegated them the 
authority, ma'am.
    Ms. Norton. Well, how are they able to?
    How many agencies in this area, in the D.C. metropolitan 
area, have what amount to must be some kind of implied 
delegation authority to move away?
    Do you know of any who are, in fact, moving away, Mr. 
Wright? Can you name any?
    Mr. Wright. The main one that causes me concern is the U.S. 
Marshal Service and Administrator of the Courts. We now have a 
pilot program in place which the Marshal Service has taken over 
perimeter security or they are scheduled to here in the next 
couple of months, taking over perimeter security at Federal 
courthouses.
    Ms. Norton. Mr. Schenkel, that clearly could not have 
happened without an MOU from FPS or somebody. You can't just 
step in and say, okay, we are doing your job now.
    And, by the way, I am worried about this being paid twice.
    Mr. Wright. Right.
    Mr. Schenkel. Yes, ma'am.
    Mr. Wright. I will say on FPS's behalf, there is tremendous 
pressure from the judiciary and the Administrator of the Courts 
on these issues.
    Ms. Norton. Again, here, we get back to GSA not doing its 
job because the courts then run the FPS or whoever are the 
guards. This is going to require Congress to look. This, of 
course, is also in our jurisdiction because the courts are.
    This is going to require really, once again, our trying to 
get a hold of courts who also tried to build their own 
buildings until we got a hold of that, and now they are trying 
to guard their own buildings. This, obviously, complicates 
these negotiations you are in.
    But I need to know where the authority is coming and, Mr. 
Schenkel, within 30 days, I need to know the names of any 
agencies which are now doing their own security outside of the 
now--I was about to say GSA--the FPS-administered security. 
That is number one.
    I want to know how many, who are they and by what authority 
within 30 days, would you please submit to this Committee?
    Mr. Schenkel. Yes, ma'am. We have already just completed an 
inventory, and so we have that.
    Ms. Norton. Thank you.
    But you don't know what the authority has been for doing 
that?
    Mr. Schenkel. Prior to FPS coming to the Department of 
Homeland Security, these delegations of authority were granted 
fairly easily by the GSA. We have not granted.
    Ms. Norton. You think all of these are old authorities and 
none of them have recently come?
    Mr. Schenkel. None of them have been recent, no, ma'am.
    Ms. Norton. They could be pulled back, however.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Well, it is very important to get that 
information because this Committee has jurisdiction over the 
courts, whomever it is who has done this.
    Let me ask you, Mr. Schenkel, how has placing FPS in ICE 
improved the performance of FPS?
    Mr. Schenkel. In the financial realm primarily because we 
deal with 800.
    Ms. Norton. Well, of course, not until we got together 
because there was quite a shambles there.
    Mr. Schenkel. That is absolutely correct. Yes, ma'am. But, 
as you know, we deal with about $800 million in contracts a 
year. We are not staffed to handle that kind of a financial 
challenge.
    Ms. Norton. It would appear--and you may tell me different 
and I would be glad to hear it--that infrastructure and the 
Office of Infrastructure Protection may have a more closely 
related mission, and they could handle the overhead issues that 
FPS isn't equipped to handle?
    Why was ICE chosen?
    Mr. Schenkel. Ma'am, that happened long before I got here.
    Ms. Norton. But you would think that the mission would be 
understood enough to know why we are here rather than there.
    Mr. Schenkel. The mission aligns itself. However, 
Infrastructure Protection does not have the law enforcement 
authority. I can only surmise that were put in ICE.
    Ms. Norton. Border Control has law enforcement authority, 
but it is altogether different from what FPS does, and those 
distinctions are made even in the officers and in their 
benefits and every other way, apparently.
    So just putting things together, they call themselves 
police forces, and that is what we fear. Is that how they got 
put together?
    Is the overhead problem dealing with that problem, why FPS 
is not a stand-alone agency? Couldn't DHS then handle these 
overhead problems, filling out the forms and the payroll?
    Mr. Schenkel. I am talking primarily on the contract side, 
ma'am. The HR system could certainly support our officers and 
our mission support.
    Ms. Norton. Oh, I see. You mean the contract officers.
    Mr. Schenkel. Yes, ma'am, and the contracts themselves. We 
would have to have some kind of deep support system to support 
our minimal mission support staff when dealing with these 
contracts.
    Ms. Norton. Has going to an inspector-based force done 
anything about staffing except reduce it, anything about 
funding except reduce it? Indeed, has it even allowed the 
security assessments to be performed in a timely manner?
    I am trying to find some benefit for having gone to this 
inspector-based workforce.
    Yes, Mr. Schenkel.
    Mr. Schenkel. Yes, ma'am, it has because we have been able 
to now complete all of the overdue basic security assessments. 
We have been able to work a work plan.
    Ms. Norton. But the GAO does not say so. They say it is not 
on a timely basis.
    Mr. Schenkel. I would have to refute that, ma'am, and I 
have the documentation to show it.
    Ms. Norton. Okay. We are going to ask you to submit that 
within 30 days. That is the kind of thing we want, if you 
disagree with the GAO report, we will be pleased to get that 
assessment. Go ahead.
    You go to an inspector-based workforce and immediately, 
look what happens. You reduce the staff. You make up for your 
funding shortfall, and it is hard for us to see any other 
benefit and certainly any other benefit to law enforcement as 
such.
    Mr. Schenkel. Well, the benefit to law enforcement, as Mr. 
Wright has already discussed, we don't have 6c coverage. We 
don't have a law enforcement retirement.
    By moving our police officers to a LESO position, an 
inspector position, we give them the opportunity to have a 
career path where they can, instead of topping out at a GS-7 or 
8 police officer, they can be promoted up to a GS-12. That is 
attracting some or many, I should say, not just some of our 
police officers.
    Ms. Norton. Well, Mr. Wright, is that true, the retirement 
benefits? Do any other benefits enhance by moving?
    Do your officers prefer this new dual structure?
    Mr. Wright. Benefits are not enhanced. They are offered the 
career opportunity to top out at a GS-12 and potentially a 
career track to 13, 14, 15.
    Ms. Norton. So there is some benefit to the employee.
    Mr. Wright. Correct, but it is not, as we call in law 
enforcement, 6c or 12d benefits is not included in that
    Ms. Norton. What is the reluctance to make the Federal 
Protective Service Officer equivalent of other officers?
    Mr. Schenkel. There is no reluctant, ma'am. We would love 
to have 6c coverage.
    Ms. Norton. I can't understand the difference between the 
Capitol Police. I can't help but to make this invidious 
comparison between the various police forces. I am not sure I 
like what I see here.
    Mr. Wright. I think historically it has been tied to the 
language of the law. As it was developed initially, to my 
understanding, it was aimed towards criminal investigators. 
Long-term investigations being a requirement of that original 
law.
    Ms. Norton. Which original law? I am sorry. Which original 
law?
    Mr. Wright. I would have to submit that to you. I can look 
up.
    Ms. Norton. I am sorry. I didn't hear. Would you start 
again because I didn't understand the distinction you were 
making?
    Mr. Wright. The reluctance for giving Federal Protective 
Service the 6c-12d law enforcement officer benefits, it has 
always been disputed by OPM, number one.
    The definition of our law enforcement, our police officers 
never fit the definition given in 6c and 12d because that law, 
that original law focused on long-term investigations. It was 
designed for criminal investigators and special agents.
    As it has developed throughout the years, that law has 
incorporated everything from detention to protection of public 
officials, basically everything but a first responder.
    Ms. Norton. Initially, you say there were criminal 
investigations. Like investigators and nothing more, is that 
it?
    Mr. Wright. The history that I understand as to how that 
law was developed was aimed toward criminal investigators.
    Ms. Norton. But these are peace officers, carry guns and do 
whatever else other peace officers do.
    Mr. Wright. Absolutely.
    Ms. Norton. You heard our concern, Mr. Schenkel, about 
these MOUs and, by the way, we heard your testimony about the 
mutual relationships that have been developed in some places 
where there are shallow Federal facilities. In the first place, 
I think that is very efficient and commend the agency for that.
    But, of course, the cities or jurisdictions we were talking 
about, the 50 that were to lose all FPS officers, had them 
before and didn't have mutual relationships. You heard the 
testimony that not only were there no MOUs, some of them had 
not heard of MOUs. They weren't in these other relationships 
you described earlier with Mr. Carney.
    For all intents and purposes, in these 50 cities, do any 
kind of formal relationships of any kind exist between the 
local police department and the agency, the Federal Agency?
    Mr. Schenkel. As far as an MOU or an MOA signed with a law 
enforcement?
    Ms. Norton. Or any other thing you can cite. So informal 
relationships doesn't mean anything that the Federal employee 
and the agency can rely upon?
    Mr. Schenkel. Other than the fact that 81 percent of the 
9,000 buildings are leased properties. So, consequently, local 
law enforcement is obligated to respond and to protect those 
facilities.
    As far as an MOU or an MOA, we do not have those.
    Ms. Norton. Well, how is it that the testimony was that 
they had not understood that they were to respond to those 
properties?
    It might be a leased property, but if it is a Federal 
Agency called the XYZ Agency and you are a local officer, you 
think it is the XYZ Federal Agency. Unless you know that you 
are supposed to respond, the fact that it is leased to a 
Federal Agency doesn't mean it isn't Federal property.
    Mr. Schenkel. I am not disagreeing with you at all, ma'am, 
because I didn't even the Federal Protective Service existed 
when I was with the Chicago Police Department, but I think that 
is indicative of the paucity of the agency. It is not that 
people are ignoring the Federal Protective Service, but because 
they have always responded to those facilities, whether they be 
Federal or not, they didn't even know we existed.
    Ms. Norton. Are you telling me that the Chicago Police 
Department responded to Federal facilities?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Mr. Schenkel, name the kinds of Federal 
facilities that the local police department felt they should 
respond to in Chicago.
    Mr. Schenkel. Any other than the main Federal buildings and 
courthouse downtown.
    Ms. Norton. So, in point of fact, you believe that they 
have a responsibility to respond and they will respond, and you 
don't need to have FPS officers associated with these 
structures.
    Mr. Schenkel. I didn't say that, and I would never say 
that. I think we do need Federal police officers or Federal law 
enforcement security officers involved because that builds 
those relationships and provides that in-depth knowledge and 
that leveled security, if you will.
    Ms. Norton. So you are then?
    Mr. Schenkel. I am a proponent of Federal law enforcement.
    Ms. Norton. Then you think that these 50 cities or 
jurisdictions should be covered?
    Mr. Schenkel. If we have the resources, absolutely, yes, 
ma'am.
    Ms. Norton. Can you testify here today who can be expected 
to respond in those 50 jurisdictions which are now not covered 
by MOUs or in any other formal way?
    Do you know for a fact that the local police would respond?
    Mr. Schenkel. I would have to go city by city, ma'am.
    Ms. Norton. Have you gone city by city?
    Mr. Schenkel, it seems to me that there is an affirmative 
duty here. Given the GAO report that tells us that these local 
police officers don't understand that there was to be an MOU or 
that they were to respond, there is now an affirmative duty on 
the part of FPS to make sure that these 50 jurisdictions are 
covered. How are you making sure they are covered?
    Mr. Schenkel. Because I rely on the 81 percent of Federal 
properties that are leased, and then we have to. Our entire 
knowledge----
    Ms. Norton. See, we are going in circles now because the 
testimony from the GAO was that these people didn't even know 
that there were supposed to be MOUs, and you are relying on the 
fact that they know that they are supposed to go in. You see 
why I would be nervous if I were in those 50 jurisdictions, to 
hear the contradiction between you and the GAO on that score?
    Mr. Schenkel. I am not trying to contradict. I am just 
trying to add, I guess, a sense of perspective here is that 
local law enforcement patrols, responds to nearly all of the 
facilities, whether they be Federal or not, in their local 
jurisdiction. It certainly could be enhanced by the presence or 
an increase in numbers of Federal law enforcement officers.
    Ms. Norton. Mr. Schenkel, the Subcommittee is going to have 
to ask you to submit evidence within 30 days that in those 50 
jurisdictions, local law enforcement has been informed that 
they may enter a Federal facility.
    This is very important to note. We had some testimony from 
the GAO that the FPS opened the facility and let in the local 
law enforcement officer, thereby apparently giving them 
permission.
    But you are telling me they have permission and they should 
know they have permission and they should know that you are 
relying on them if there is a call and, moreover, that these 
Federal facilities know that who they are supposed to call is 
the local police department. That is your testimony here today?
    Mr. Schenkel. No, ma'am, not at all. The Federal facilities 
know to call the mega center if there is an alarm or if there 
is an intrusion or if there is a problem and then based on 
availability of Federal police officers.
    Ms. Norton. There are no Federal police officers, we now 
know, in those 50 jurisdictions, Mr. Schenkel.
    Mr. Schenkel. Then the mega centers contact local law 
enforcement, and local law enforcement makes the response.
    Ms. Norton. So it seems to me if that is the case and I am 
in a Federal building, a Federal courthouse or something, I 
think I want to call the local cops myself rather than to use 
you as the pass-through.
    Mr. Schenkel. In many cases.
    Ms. Norton. Because you won't have any help to give to me 
and only the local law enforcement? Do you realize how chaotic 
this is, Mr. Schenkel?
    Mr. Schenkel, I need to know. This Subcommittee needs to 
know within 30 days who the 50 jurisdictions are, whether they 
understand and whether you have informed them that they are 
principally to rely on local law enforcement, whether the local 
law enforcement knows that they have been informed and that 
they have permission to enter Federal facilities. Within 30 
days, we need that information.
    We will not close this session in this state of affairs, 
just not knowing. There have been too many questions raised by 
the report. We need to know, particularly in those 50 
jurisdictions, do they know that they are not covered because 
there is not Federal police there?
    Do they know? Therefore, have you informed them? Therefore, 
you obviously should inform them that they must call the local 
police.
    The local police, you will have to inform that the local 
police know and understand that they are to respond to these 
calls. You will have to inform us that they have permission and 
understand they have permission to enter a Federal facility.
    Mr. Schenkel. I don't think that can be done, ma'am.
    Ms. Norton. Excuse me?
    Mr. Schenkel. I don't think that can be done.
    Ms. Norton. Why?
    Mr. Schenkel. Because it would be dependent literally on 
each and every individual facility within each and every----
    Ms. Norton. They all come out of your jurisdiction. We are 
talking about FPS jurisdiction. Where you used to have 
officers, you don't have officers now, and you are telling me 
that you are depending upon the fact that they are leased 
buildings and they can call the local cops if they only call 
you first.
    Now I am trying to find out whether we can get together a 
system that would work there and would make us feel that these 
employees are being protected.
    We don't have any testimony from you that the locals will 
respond. Your testimony is based on the fact that these are 
leased buildings. This leaves us in a totally problematic 
position here with respect to at least those 50 positions, and 
we would hate to move from others where there may be only 1 or 
2 FPS officers.
    I don't know what to tell you. I think you need to come in 
and talk to staff because either you have to work out a system 
whereby they know they are supposed to respond or you have to 
respond. You have the authority if it is a Federal facility. 
There is no way to get away from your responsibility.
    Mr. Schenkel. If you put a note----
    Ms. Norton. If you are here testifying you are not going to 
accept that responsibility, you then have the responsibility to 
make sure that somebody will.
    Mr. Schenkel. In that context.
    Ms. Norton. We have no reason to believe that the local 
police officers or the local police understand or have been 
informed that they have permission to enter and that they are 
being depended upon to enter. I don't even know that you have 
the authority to do it, to tell you the honest to goodness 
truth.
    Mr. Schenkel. Okay.
    Ms. Norton. You see my problem, Mr. Schenkel. I am going to 
have staff be in touch with you. This is a dangerous situation, 
sir.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Finally, liability, just before I run to vote, 
I can vote in the Committee as a whole.
    Liability, a confused notion that we could have people, 
contractors who have obviously have been contracted by the 
Federal Government but believe they cannot do part of their job 
because they personally would incur liability. Would you 
explain, please? They, the contractor.
    Mr. Schenkel. Other than with the GAO report, that is the 
first I have heard of that, but they are held to 
responsibilities to retain and to react, the contractors and 
the contract guards. So we have to address that on a case by 
case basis on that individual contractor which we will be more 
than happy to do if the GAO provides the names of the 
contractor.
    Ms. Norton. Mr. Wright, do you know anything about this?
    Mr. Wright. Yes. It has been pretty historical.
    I think, as I testified last year, each security company, 
each security guard has differing commissioning requirements. 
So, if he is a guard in Kansas City, he has to go to Kansas 
City PD and get a commission. That commission sets his 
authority on what he is able to do on any property, to include 
Federal property.
    That being said, contractors are private companies. I am 
not anti-free enterprise, but companies and individuals acting 
in that capacity, they don't have a career, a Federal career to 
worry about. They don't have the backup of the U.S. Attorney or 
the Department of Justice.
    Ms. Norton. Mr. Wright, I understand that. I am a lawyer, 
and that is why I understand that this could be corrected. I 
understand what you are saying. They are State-regulated.
    Mr. Wright. Right.
    Ms. Norton. We hire them, we, the Federal Government. It is 
something called Federal Supremacy. The notion that a Federal 
contractor might not perform his stated duties because of 
liability is a clear and present danger to the assignment he 
has.
    Mr. Schenkel, I am going to ask you within 30 days to have 
your General Counsel. Would it be the General Counsel of ICE?
    Mr. Schenkel. OPLA, they call it, Office of Principal Legal 
Advisor.
    Ms. Norton. The General Counsel, to get us a clarifying 
memo. I want him to read the GAO examples of where contractors 
felt they could not move forward to perform the duties in their 
contract for fear of liability, and I would like a legal 
memorandum describing that situation and what they propose to 
do about it.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Thank you very much for this. This has been 
very important testimony to a hearing that will require us to 
take some action, some action before this session of Congress 
closes. We must take the action because the Committee now is on 
notice.
    We have cross-examined the witnesses. You have done the 
best you could in answering it. Some of it is not in your 
control, and we understand. Some of it has to do with funding. 
Some of it has to do with management. All of it will have to do 
with everybody's responsibility if we leave this session of 
Congress without doing something about it.
    I thank you very much for this testimony, and this hearing 
is adjourned.
    [Whereupon, 3:45 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3115.000
    
    6[GRAPHIC] [TIFF OMITTED] T3115.000
    
    7[GRAPHIC] [TIFF OMITTED] T3115.000
    
    8[GRAPHIC] [TIFF OMITTED] T3115.000
    
    9[GRAPHIC] [TIFF OMITTED] T3115.001
    
    0[GRAPHIC] [TIFF OMITTED] T3115.001
    
    1[GRAPHIC] [TIFF OMITTED] T3115.001
    
    2[GRAPHIC] [TIFF OMITTED] T3115.001
    
    3[GRAPHIC] [TIFF OMITTED] T3115.001
    
    4[GRAPHIC] [TIFF OMITTED] T3115.001
    
    5[GRAPHIC] [TIFF OMITTED] T3115.001
    
    6[GRAPHIC] [TIFF OMITTED] T3115.001
    
    7[GRAPHIC] [TIFF OMITTED] T3115.001
    
    8[GRAPHIC] [TIFF OMITTED] T3115.001
    
    9[GRAPHIC] [TIFF OMITTED] T3115.002
    
    0[GRAPHIC] [TIFF OMITTED] T3115.002
    
    1[GRAPHIC] [TIFF OMITTED] T3115.002
    
    2[GRAPHIC] [TIFF OMITTED] T3115.002
    
    3[GRAPHIC] [TIFF OMITTED] T3115.002
    
    4[GRAPHIC] [TIFF OMITTED] T3115.002
    
    5[GRAPHIC] [TIFF OMITTED] T3115.002
    
    6[GRAPHIC] [TIFF OMITTED] T3115.002
    
    7[GRAPHIC] [TIFF OMITTED] T3115.002
    
    8[GRAPHIC] [TIFF OMITTED] T3115.002
    
    9[GRAPHIC] [TIFF OMITTED] T3115.003
    
    0[GRAPHIC] [TIFF OMITTED] T3115.003
    
    1[GRAPHIC] [TIFF OMITTED] T3115.003
    
    2[GRAPHIC] [TIFF OMITTED] T3115.003
    
    3[GRAPHIC] [TIFF OMITTED] T3115.003
    
    4[GRAPHIC] [TIFF OMITTED] T3115.003
    
    5[GRAPHIC] [TIFF OMITTED] T3115.003
    
    6[GRAPHIC] [TIFF OMITTED] T3115.003
    
    7[GRAPHIC] [TIFF OMITTED] T3115.003
    
    8[GRAPHIC] [TIFF OMITTED] T3115.003
    
    9[GRAPHIC] [TIFF OMITTED] T3115.004
    
    0[GRAPHIC] [TIFF OMITTED] T3115.004
    
    1[GRAPHIC] [TIFF OMITTED] T3115.004
    
    2[GRAPHIC] [TIFF OMITTED] T3115.004
    
    3[GRAPHIC] [TIFF OMITTED] T3115.004
    
    4[GRAPHIC] [TIFF OMITTED] T3115.004
    
    5[GRAPHIC] [TIFF OMITTED] T3115.004
    
    6[GRAPHIC] [TIFF OMITTED] T3115.004
    
    7[GRAPHIC] [TIFF OMITTED] T3115.004
    
    8[GRAPHIC] [TIFF OMITTED] T3115.004
    
    9[GRAPHIC] [TIFF OMITTED] T3115.005
    
    0[GRAPHIC] [TIFF OMITTED] T3115.005
    
    1[GRAPHIC] [TIFF OMITTED] T3115.005
    
    2[GRAPHIC] [TIFF OMITTED] T3115.005
    
    3[GRAPHIC] [TIFF OMITTED] T3115.005
    
    4[GRAPHIC] [TIFF OMITTED] T3115.005
    
    5[GRAPHIC] [TIFF OMITTED] T3115.005
    
    6[GRAPHIC] [TIFF OMITTED] T3115.005
    
    7[GRAPHIC] [TIFF OMITTED] T3115.005
    
    8[GRAPHIC] [TIFF OMITTED] T3115.005
    
    9[GRAPHIC] [TIFF OMITTED] T3115.006
    
    0[GRAPHIC] [TIFF OMITTED] T3115.006
    
    1[GRAPHIC] [TIFF OMITTED] T3115.006
    
    2[GRAPHIC] [TIFF OMITTED] T3115.006
    
    3[GRAPHIC] [TIFF OMITTED] T3115.006
    
    4[GRAPHIC] [TIFF OMITTED] T3115.006
    
    5[GRAPHIC] [TIFF OMITTED] T3115.006
    
    6[GRAPHIC] [TIFF OMITTED] T3115.006
    
    7[GRAPHIC] [TIFF OMITTED] T3115.006
    
    8[GRAPHIC] [TIFF OMITTED] T3115.006
    
                                   9 

</pre></body></html>
